<html>
<title> - HURRICANE KATRINA: MANAGING THE CRISIS AND EVACUATING NEW ORLEANS</title>
<body><pre>[Senate Hearing 109-793]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-793

   HURRICANE KATRINA: MANAGING THE CRISIS AND EVACUATING NEW ORLEANS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 1, 2006

                               __________

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs














                    U.S. GOVERNMENT PRINTING OFFICE

27-023 PDF                  WASHINGTON : 2007
------------------------------------------------------------------
For sale by Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax:  (202) 512-2250. Mail:  Stop SSOP, 
Washington, DC 20402-0001






















        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
TOM COBURN, Oklahoma                 THOMAS R. CARPER, Delaware
LINCOLN D. CHAFEE, Rhode Island      MARK DAYTON, Minnesota
ROBERT F. BENNETT, Utah              FRANK LAUTENBERG, New Jersey
PETE V. DOMENICI, New Mexico         MARK PRYOR, Arkansas
JOHN W. WARNER, Virginia

           Michael D. Bopp, Staff Director and Chief Counsel
                   David T. Flanagan, General Counsel
                   Arthur W. Adelberg, Senior Counsel
            Kathleen L. Kraninger, Professional Staff Member
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
                Robert F. Muse, Minority General Counsel
                    Joshua A. Levy Minority Counsel
                  Trina Driessnack Tyrer, Chief Clerk




















                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Collins..............................................     1
    Senator Lieberman............................................     2
    Senator Coleman..............................................    14
    Senator Akaka................................................    17
    Senator Carper...............................................    19
    Senator Lautenberg...........................................    21
    Senator Levin................................................    23
    Senator Warner...............................................    45

                               WITNESSES
                      Wednesday, February 1, 2006

Hon. C. Ray Nagin, Mayor, City of New Orleans....................     4
Brigadier General Mark A. Graham, Deputy Commanding General, 
  Fifth U.S. Army................................................    37
Vincent Pearce, National Response Program Manager, U.S. 
  Department of Transportation...................................    40
Dwight David Brashear, Chief Executive Officer, General Manager, 
  Capital Area Transit System, Baton Rouge, Louisiana............    41

                     Alphabetical List of Witnesses

Brashear, Dwight David:
    Testimony....................................................    41
    Prepared statement...........................................    92
Graham, Brigadier General Mark A.:
    Testimony....................................................    37
    Prepared statement with attachments..........................    58
Nagin, Hon. C. Ray:
    Testimony....................................................     4
    Prepared statement...........................................    51
Pearce, Vincent:
    Testimony....................................................    40
    Prepared statement...........................................    89

                                APPENDIX

Post-hearing questions and responses for the Record from:
    Mayor Nagin..................................................    98
Three CNN excerpts from television programs on Wednesday night, 
  August 31, 2005, submitted by Senator Levin....................   100
Exhibit 7........................................................   102
Exhibit 16.......................................................   107
Exhibit 21.......................................................   133




















 
   HURRICANE KATRINA: MANAGING THE CRISIS AND EVACUATING NEW ORLEANS

                              ----------                              


                      WEDNESDAY, FEBRUARY 1, 2006

                                       U.S. Senate,
                           Committee on Homeland Security  
                                   and Governmental Affairs
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:03 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Susan M. 
Collins, Chairman of the Committee, presiding.
    Present: Senators Collins, Coleman, Warner, Lieberman, 
Levin, Akaka, Carper, and Lautenberg.

             OPENING STATEMENT OF CHAIRMAN COLLINS

    Chairman Collins. The Committee will come to order. Good 
morning.
    Mayor Nagin. Good morning.
    Chairman Collins. The humanitarian crisis that overwhelmed 
the City of New Orleans in the aftermath of Hurricane Katrina 
shocked the world and shamed the Nation. The damage came from a 
powerful force of nature, but much of the protracted misery 
that followed was the result of failures across all levels of 
government.
    Today's hearing, the Committee's 14th on Hurricane Katrina, 
will examine the roles, responsibilities, and actions of public 
officials in preparing for and managing the crisis. We will 
focus on the root causes of failure, including shortfalls in 
the planning and execution of plans.
    Citizens expected concerted, coordinated leadership. For 
the most part, they got confusion, conflict, and chaos. News 
photos showed the human misery in New Orleans and the 
surrounding communities. Less obvious was how it might have 
been mitigated, what steps might have been taken to evacuate 
more people before Katrina struck, and to prepare for rescuing 
those left behind.
    Our first witness this morning is New Orleans Mayor Ray 
Nagin, the commander-in-chief of the city's emergency response. 
He will discuss the city's responsibilities in preparing for 
and responding to Katrina and the adequacy or inadequacy of 
State and Federal support. I will ask Mayor Nagin about such 
issues as whether the resources the city devoted to emergency 
preparedness prior to Katrina matched the known risk, whether 
the city had an effective emergency command and control 
structure, whether plans for pre-landfall evacuation of people 
without vehicles were made and how well those plans were 
understood and carried out, and why the plans for post-landfall 
care or evacuation of people left in the city were so 
inadequate and incomplete.
    Our second panel of witnesses consists of public officials 
who provided support and security to the victims stranded in 
New Orleans and assisted in their eventual evacuation. They 
represent the Capital Area Transit System of Baton Rouge, the 
U.S. Army, and the U.S. Department of Transportation. Their 
testimony should help us understand the problems of planning, 
coordination, and communication that compounded the crisis.
    We will also recognize the tremendous efforts of some 
officials and volunteers that produced effective 
countermeasures to some of these problems.
    This crisis displayed failures of leadership, planning, 
preparation, and execution at all levels of Government. We must 
take to heart the lessons that will better protect our citizens 
when disaster next strikes, as inevitably it will.
    Senator Lieberman.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Senator Lieberman. Thanks, Madam Chairman. Good morning, 
Mayor.
    Mayor Nagin. Good morning.
    Senator Lieberman. Thank you for being here. This is our 
14th hearing, as the Chairman has said, on Hurricane Katrina. I 
do want to say first, Senator Collins and I and other Members 
of the Committee, as you know, Mayor, were in New Orleans and 
the Gulf Coast a couple of weeks ago. Two things really struck 
us. Last time we had been there was a few weeks after the 
hurricane hit. There were large parts of the city that were 
under water, so we could only see them from the air. This time 
we took the bus right around the city. The scope of the 
devastation is literally unbelievable, and I think we both came 
back wishing and hoping that every Member of Congress will be 
able to go and see that. I must say that those sites and the 
conversations we had with people in New Orleans are in our 
minds as we go forward with these hearings.
    There is a lot to do to look back at the preparation for 
and response to Hurricane Katrina. We are focused on it with a 
real sense of urgency because we know the hurricane season is 
coming again in June. We want to do everything we can by way of 
legislative and administrative regulations, that is, 
regulations to the Executive Branch, to make sure that we are 
an awful lot better prepared next time.
    We could not help, in speaking to people and interviewing 
governmental officials, both in Mississippi and in Louisiana, 
and I speak for myself, but I believe I can for Senator Collins 
in this, that we were not satisfied with the Federal 
Government's performance in the reconstruction phase. I want to 
assure you and the people of New Orleans, who I know are 
grateful for the help that has come, but also are restless and 
to some extent, understandably down, that we are working 
together to make some recommendations about changes that can 
occur. We want to give more authority to decisionmakers for the 
Federal Government on the ground, to give Mr. Powell some more 
authority, and to do what I think everybody, the President and 
all Members of Congress want to do with the billions of dollars 
that we have appropriated, which is to make sure they very 
quickly go to the rebuilding and return of hope and optimism to 
one of America's great cities and, of course, a great section 
of our country, the Gulf Coast.
    I want to briefly start with that, in a sense, word of 
commitment and, I hope, hopefulness to you as the Mayor, but 
through you to the citizens of New Orleans.
    Today's hearing is focused on managing the crisis and 
particularly the evacuation. We are going to hear from 
witnesses from all levels of government, first, of course, from 
the Mayor of New Orleans himself. In some ways I think what we 
are going to hear from the Mayor today, what our staff has 
found, will cause us to ask the question of what might have 
been. What might have been if the Mayor's earlier plans and, if 
I might say so, demands or questions for getting the city ready 
for a disaster had been acted on?
    The record shows, as our investigation has turned up, that 
Mayor Nagin, elected in 2002, I believe, almost immediately 
began urging officials, both Federal and State, to help New 
Orleans prepare for a catastrophic hurricane. He asked for help 
in improving the levee system that everyone knew would fail in 
a catastrophic hurricane. He asked for help creating mass 
evacuation plans to get those residents without transportation 
out of harm's way. He asked for help to improve a faulty 
communications system. He actually began this quest 2 years 
before the 2004 Hurricane Pam exercise so accurately predicted 
what happened a year later when Katrina hit New Orleans.
    Today we are going to learn more about what the Mayor and 
the city government did or did not do to prepare the city for 
Katrina and other catastrophic storms. In some cases it seems 
to me the record shows that work was under way and time just 
ran out. In other cases, good ideas, real questions, and 
farsighted plans were simply never acted upon.
    For instance, as we heard yesterday, there was at least one 
New Orleans city official, Dr. Stephens, who had begun to work 
on devising a mass pre-storm evacuation plan so as few people 
as possible would be left behind. Agreements were being 
negotiated, and those negotiations went on, puzzlingly, for 
almost a year with Amtrak, the Regional Transit Authority, the 
School Board, and the Delta Queen Riverboat Company for pre-
storm evacuation, but they were not completed when Katrina made 
landfall.
    Given the Mayor's longstanding on-the-record belief that an 
evacuation plan and resources were needed, knowledge that 
predated the Hurricane Pam exercise, we have to ask why did it 
take so long to negotiate those contracts? Why weren't they 
signed? Why wasn't the help there when the hurricane struck?
    We have also heard that New Orleans' budget for emergency 
preparedness was smaller than some of its neighboring parishes, 
and we want to know if this is true and why. We will also want 
to know why the city's lead search and rescue agency, the New 
Orleans Fire Department, had no boats and the police department 
apparently had just seven. Also I want to ask is it true, as 
some have told us, that neighboring parishes, obviously with 
fewer people, had fully stocked emergency operation centers 
that occupied entire buildings, while the New Orleans EOC, 
which the Mayor was forced to try to work from until it was no 
longer occupiable, had just two rooms on one floor in City Hall 
with little equipment prepositioned there.
    Mayor Nagin himself never left the helm during Katrina, but 
the helm itself was inadequate to the crisis. He was left 
without an office, without communications, without 
transportation, which obviously made it extremely difficult, if 
not in some sense impossible, for him to exercise the authority 
that Senator Collins has quite correctly described, commander-
in-chief of the emergency response operation for the city. We 
want to ask could all of that have been avoided?
    Madam Chairman, these are just some of the questions that I 
think have to be asked of the Mayor if we are going to fully 
understand what went wrong during the run-up to and aftermath 
of Katrina and how we, together, can make sure we are totally 
prepared when and if disaster strikes again.
    Hurricane season is just 4 months away, and we know that 
nature takes no sabbaticals and time is not our friend. That is 
why this Committee certainly will continue to investigate, 
educate, and then recommend reforms with a sense of urgency 
that the historic record sadly shows was missing in the years, 
months, and days prior to Hurricane Katrina.
    Thank you very much.
    Chairman Collins. Thank you.
    Mr. Mayor, we welcome you here today. I am going to ask 
that you stand to take the oath, and I would ask all of the 
other witnesses who will be testifying today to please stand at 
this time also so that I may administer the oath.
    Do you swear that the testimony you are about to give to 
the Committee will be the truth, the whole truth, and nothing 
but the truth, so help you, God?
    Witnesses: I do.
    Chairman Collins. Thank you. Mayor, please proceed with 
your statement.

 TESTIMONY OF HON. C. RAY NAGIN,\1\ MAYOR, CITY OF NEW ORLEANS

    Mayor Nagin. Thank you, Madam Chairman. I am C. Ray Nagin, 
Mayor of one of America's most unique cities, New Orleans, a 
city that has tragically suffered vast devastation following 
the worst natural and manmade disaster in the history of the 
United States.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mayor Nagin appears in the Appendix 
on page 51.
---------------------------------------------------------------------------
    In August and September 2005, the City of New Orleans was a 
victim of Hurricanes Katrina and Rita, which not only forced 
hundreds of thousands of our citizens away from their homes, 
but took the lives of 1,300 people in the region and stole the 
trust in the safety of our city.
    To Senator Collins as Chairman, Senator Lieberman as 
Ranking Member, and to all Members of the Senate Committee on 
Homeland Security and Governmental Affairs, thank you for the 
opportunity to be here today to speak directly to you on how we 
managed this crisis and evacuation of New Orleans.
    I also want to thank those of you who took the time to 
come, those Committee Members or Committee leaders, to New 
Orleans to see firsthand the devastation we suffered and are 
still suffering and the determination of our citizens to 
rebuild their lives in our city. I encourage each one of you 
who have not yet been to New Orleans to come see it yourself. 
It would blow your mind if you took the time.
    I would like to take this moment to again thank the 
American people and our friends from around the world for the 
compassion, support, and generosity shown to our city and our 
residents over the last several months. The outpouring from 
private citizens, governments, and corporations all around the 
world has been remarkable.
    I begin my testimony, ladies and gentlemen, by painting a 
picture of New Orleans before Katrina. Our city government was 
transparent and fiscally sound. We had more than $3 billion in 
construction-related activity going on simultaneously in the 
city. Our real estate market was on fire, and even the infamous 
Donald Trump had just announced the latest Trump Tower in New 
Orleans that would grace our skyline.
    We also had a starring role as ``Hollywood South'' of the 
Nation, with hundreds of millions of dollars in films being 
made in our area on an annual basis. Tourism was better than 
ever, with a record 10.1 million visitors coming to our city 
and thousands of people cruising in and out of New Orleans.
    Equally as important, about 38,000 people moved from the 
poverty rolls, many into new jobs created in 2004 and 2005. New 
Orleans and its port continues to supply raw goods and our 
Nation's energy supply.
    But one day, on August 29, everything changed for this 
wonderful city. Please allow me this time to walk you through 
the preparation and evacuation process, along with events that 
followed the landfall of a very dangerous storm, a storm that 
will go down in history for many years to come.
    The Friday before landfall, August 26, 2005, Hurricane 
Katrina crossed Florida into the Gulf of Mexico. Although the 
path was still projected to hit the Florida panhandle, I 
notified the citizens that we needed to watch this storm very 
closely. I then activated essential staff and asked that each 
department head begin to prepare their staffs for a possible 
evacuation, with some to stay to provide necessary services 
during and after the storm if it came our way.
    I also worked with regional and State officials to enact 
our emergency plans and contra-flow to prepare what would turn 
out to be the most successful pre-event evacuation in our 
country's history.
    On Saturday, August 27, the models, the forecast models 
started to converge, showing the path of the Category 3 storm 
had changed and placing New Orleans in the middle of the 
projected cone.
    I called for a voluntary evacuation, urging all citizens 
that were able to evacuate the city to leave, following the 
contra-flow plan created by the State of Louisiana and 
implemented on a parish-by-parish basis. This was very critical 
because we had to make sure that the lower-lying parishes 
evacuated first in order that we would not have the kind of 
gridlock that you saw in Texas when they were trying to 
evacuate for Hurricane Rita. I reminded citizens of how 
important it was to prepare for the worst. Many New Orleanians 
boarded up their homes, packed up, and got on the road to 
safety.
    Our region had one of the most successful mass evacuations 
in the history of the United States. Over 90 percent of our 
residents evacuated. Over 1 million people left the region 
within 24 hours. We were successful in saving thousands of 
lives and avoiding the horrors of the Pam exercise.
    On Saturday evening, the Governor called me to tell me that 
she had just spoken to Max Mayfield with the National Weather 
Center and that I should call him. After calling him, he told 
me that in his over 30 years experience in tracking hurricanes, 
he had never seen a storm like this. He had never seen 
conditions like this.
    I immediately called my staff and visited every television 
station in the city to further alert the citizens and to 
reinforce the need for evacuation.
    To provide a safety net to seniors and other citizens who 
relied upon public transportation, I took another very 
important step by encouraging our faith-based communities to 
reinforce evacuation through buddy systems within their 
community. I encouraged them to contact the individuals in 
their congregations and in their neighborhoods around their 
churches to make sure that they had an evacuation plan and they 
could implement it and, if they needed help, to provide it.
    On Saturday night, the National Weather Service reported 
that Katrina was now a Category 5 hurricane and was 
approximately 250 miles away from New Orleans with 190 mile-
per-hour sustained winds. Katrina had increased in size within 
hours and had a predicted storm surge of at least 15 or 20 
feet.
    After a Sunday morning statewide conference call, I 
elevated my prior calls for voluntary evacuation to the first 
ever mandatory evacuation order in the history of the City of 
New Orleans. We evacuated as many special needs residents as we 
safely could to a State shelter and then opened the Louisiana 
Superdome for the remaining special needs population. Later 
that day, we opened the Superdome as a refuge of last resort 
for all citizens who had not or could not evacuate the city and 
used buses, prestaged throughout the city, to transport those 
individuals to the Superdome. I set a curfew for dusk, which is 
when we expected gale force winds to begin.
    There were thousands of residents that did not leave, 
including those with means, who chose instead to ride out the 
storm like their parents had done during Hurricane Betsy. When 
reality set in for many on Sunday, they made their way to the 
shelter of last resort.
    On Monday, August 29, 2005, Katrina, the most powerful 
Category 4 hurricane to hit the region, made landfall. We began 
to receive reports of levees breaking. Water rose as high as 18 
feet, with 80 percent of our city receiving some levels of 
flooding. This is over 61 square miles of our city was 
impacted. That would cover the entire DC region and would cover 
the entire Manhattan region.
    Thousands of people were stranded on their rooftops or in 
attics needing to be rescued. Hundreds died in the waters that 
engulfed our city. The fact that thousands did not die was a 
blessing because all scientific predictions estimated that at 
least 10,000 people would die. Primary and secondary power 
sources, sewer and drainage systems, and communications and 
power lines were incapacitated.
    Later that evening, we provided FEMA with a priority list 
identifying commodity and equipment needs and a strategy for 
the initial phases for rescue, recovery, and rebuild. Marty 
Bahamonde, the FEMA senior representative, told me after that 
meeting that he had never seen a public official prepare such a 
concise plan, and it was one of the best plans he had seen in 
such a short period of time with a disaster of this sort.
    In other parts of the city, our first responders were 
jumping into water to rescue people, as 911 operators were 
consumed with traumatic calls for rescues. They received 
thousands upon thousands of frantic and desperate calls. I 
ordered all resources to focus on rescue efforts.
    As the days passed, the growing number of people in our 
streets needing shelter required us to open the Ernest N. 
Morial Convention Center as a second refuge. There were no 
other options that we could see at that point in time. The 
Convention Center was the only facility that was available, 
that had the square footage, and that was high and dry in order 
for us to put people that were being rescued, not only from New 
Orleans, but from the surrounding parishes. The 350 buses 
promised by FEMA on Monday still had not come.
    The strain on our limited resources intensified as people 
desperate for necessities and others taking advantage of the 
unstable situation caused a serious security problem. Fires 
were breaking out in the city, and firefighters had very little 
means to contain them. The lack of utilities and communications 
crippled our city and our efforts.
    We faced a serious set of new challenges daily, and even 
hourly. We faced them head on, ready to do whatever it took to 
save our city. I directed our team on a number of occasions to 
stay focused on a couple of key priorities. First, search and 
rescue of people who were trapped and stranded; second, figure 
out ways to evacuate ultimately the Superdome and the 
Convention Center and individuals that were being dropped off 
on bridges as helicopters were rescuing them; third, patching 
of the levee breach, which at that time was still flooding and 
pumping water into our city; and fourth, draining the 
floodwaters once we stabilized that; and then fifth, recovery 
of dead bodies. We were getting reports on a daily basis. I 
personally saw dead bodies in the waters, so we knew we had to 
handle those bodies in a respectful manner, and that was one of 
the things we wanted to focus on.
    Every day requests were made to State and Federal 
authorities for emergency assistance needed to save lives and 
restore order. We requested search and rescue assistance, buses 
for evacuations, assistance in patching the levees, food, 
water, medical supplies, police and fire equipment, and pumps 
to drain water.
    I don't know if I can convey the desperation, but I was 
looking at my city, with thousands of people who were on the 
streets or on bridges or in the water, in the Superdome, at the 
Convention Center, people from the lowest-lying parts of the 
region being dropped off in our city from other parishes. We 
were in the most desperate need for assistance.
    On Wednesday, the situation in the Superdome was tenuous at 
best, and no food or water had yet arrived at the Convention 
Center. Rescue efforts by air were only beginning to get under 
way because communications channels were down and inconsistent. 
We found creative ways to communicate via text messaging to a 
communications staff person in Houston. We were trying to get a 
message to anyone we thought that could get the buses we needed 
to evacuate people.
    Little help had arrived as the day turned to night, and you 
could feel the heaviness in the aftermath. Imagine the nights, 
pitch black, no power, intense heat, and people crying out for 
help. It was a horrible, horrendous situation, and Wednesday 
night was definitely touch and go for the city.
    On Thursday, conditions continued to deteriorate. I 
received word from the National Guard and the New Orleans 
Police that the suffering in the Superdome and the Convention 
Center was becoming inhumane. There was increasing pressure to 
leave the buildings, and incidents of violence were escalating. 
As the days passed, I sent out more urgent pleas for help.
    Finally, on Friday afternoon we began to see passengers 
loading into buses. Late Friday night, I watched the last bus 
leave the Convention Center. Saturday, the final bus left the 
Superdome. Many people had been there in those locations for 7 
full days.
    I should point out that at the Superdome, the New Orleans 
Police Department and the National Guard, a small contingency 
of National Guard, held security intact. That Guard unit and 
those officers are heroes. People could not leave the Superdome 
as it was surrounded by water and there were no buses. The 
rations were stretched. There was no power and sanitation. Good 
people suffered needlessly.
    In the end, it was a horrible lesson, but one that I am 
hopeful we will learn from. By far, most of the people showed 
tremendous compassion to their fellow man, and heroism existed 
in the waters, at the Superdome, at the Convention Center, on 
the bridges, and on the streets.
    Since the storm, we have been a financially crippled 
municipality, struggling to bring our city back. Hurricane 
Katrina, like September 11 and other disasters before, has 
taught us that improvements in planning for disasters must be 
made at all levels of government. Our plans for the future 
include enhanced evacuation routes, staging necessary resources 
out of the city, and not being as dependent on the rescue 
efforts of other levels of government. This storm has 
challenged us, and we are responding.
    Consideration must also be given to the financial resources 
that should be available for jurisdictions that experience this 
type of major disaster. I urge this Committee, as you are doing 
these deliberations, to take a closer look at the Stafford Act. 
Our first responders and essential personnel worked primarily 
around the clock, responding to emergencies, yet under the 
Stafford Act, assistance is provided for only the overtime 
component of this very critical work. Then I was forced to 
drastically, radically, cut our budget and lay off over 50 
percent of our workforce when our constituents need the 
services that these hard-working public servants provide more 
than ever. This is another effect of the inadequacies of the 
Stafford Act, which only allow for a loan of up to 25 percent 
of lost revenue, regardless of the severity of the need. The 
Stafford Act should be amended to address these and other 
issues.
    As I conclude, I need to recognize our emergency response 
team led by Colonel Terry Ebbert, my Director of Homeland 
Security, who appeared before you earlier this week. Their work 
has gone largely unnoticed. Despite tremendous personal loss, 
police officers, firefighters, National Guard, EMS workers, my 
personal staff, or my executive staff, as well as other city 
workers, experienced horrific tragedy and stayed true to their 
tasks. They are all our heroes.
    I want to once again thank you for allowing me to be here 
with you todayand for your work to ensure that we, as a Nation, 
are better prepared to respond to future disasters like 
Hurricane Katrina and beyond. My hope is that our collective 
work to rebuild New Orleans and its region and the Gulf Coast 
will provide a model of how a Nation restores one of its 
jewels,
    Thank you very much
    Chairman Collins. Thank you for your testimony.
    Mr. Mayor, you decided on Saturday morning, August 27, to 
issue a mandatory evacuation order, but the order was not 
actually issued until almost 24 hours later on Sunday morning. 
These 24 hours were critical. During that time, people with the 
means to do so left the city, but those who were left behind 
faced dramatically fewer options once people with cars had 
left. The evidence suggests to me that the delay between when 
you made the decision and when the order was actually issued 
was caused by your staff debating such issues as whether 
nursing homes and hotels and hospitals should be included, how 
the order should be enforced, and other pretty fundamental 
issues.
    My question is this: Shouldn't those kinds of questions 
have been worked out in advance? Shouldn't your emergency 
operations team have already prepared a mandatory evacuation 
order, worked through the legal issues, so that once you made 
the decision, it would be issued without delay and without the 
need for further research?
    Mayor Nagin. Thank you, Madam Chairman. Let me just point 
out a couple of really key points that I would like the 
Committee to also understand as they try to evaluate this 
mandatory evacuation order. First off, we had earlier issued a 
plea to our faith-based community to do a buddy system, and we 
felt as though we had gotten a significant number of people out 
of the city, including the individuals that may or may not have 
had the necessary transportation to get out. And then as 
further clarification, I spoke with Max Mayfield on Saturday 
afternoon or evening; it was probably about 7:30 or 8 o'clock 
in the evening, and that is when I made the final decision and 
called my city attorney to get her to finalize the mandatory 
evacuation for the next morning.
    Prior to that, I had already asked her to look at all the 
legalese and to prepare a draft mandatory evacuation, which she 
had done. The only thing that we wanted to make sure of, as we 
issued this mandatory evacuation, was not only that we had the 
legal authority to do it, but that we also did not create any 
other problems with a mass evacuation of the hospitals because 
we felt as though a lot of patients would not be able to get 
the proper care to be transported where they needed to go.
    And then finally, Madam Chairman, in order to do an 
effective evacuation in the City of New Orleans, we have to 
take into account the region's needs, and everything we do as 
it relates to evacuation is coordinated with the State and with 
the other parishes. And that morning at the 5 a.m. conference 
call on Sunday morning, we told everybody what we were getting 
ready to do so that they could coordinate and make sure that 
the lower parishes knew exactly what we were getting ready to 
do, so that they could make sure that if they had anyone else 
to evacuate, they could get them out quickly.
    Chairman Collins. But time was lost, critical time, 
deciding issues like whether or not nursing homes should be 
covered. We heard testimony about that. Would it not have been 
better to have resolved those kinds of issues about the 
coverage, who was exempt, how it would be applied, prior to the 
storm as part of the planning process?
    Mayor Nagin. Well, Madam Chairman, we tried to cover all of 
those issues, but this was a real-time, real-life situation 
that had never happened before in the history of the City of 
New Orleans. We made the decision based upon the information 
that I got from Max Mayfield, which was Saturday night, and 
just like this Nation has made adjustments after September 11, 
we will make the proper adjustments going forward.
    Chairman Collins. Just before leaving that issue, I want to 
point out that in an interview with your staff, your staff 
said, ``The Mayor said it in the Saturday morning meeting, make 
it happen Saturday morning. He said, if there is any way to 
make this happen, the mandatory evacuation order, make it 
happen. I don't care what you have to do. Make it happen.''
    Mayor Nagin. Right.
    Chairman Collins. That was Saturday morning, not Saturday 
afternoon.
    Yesterday we heard extremely troubling testimony that the 
evacuation of nursing homes was simply not a priority for the 
city or for the State, and the reason, offered by the witness, 
was that nursing homes were required by law to have evacuation 
plans. Yet, the evidence is very clear that many nursing homes 
did not evacuate their frail, ill patients and that they 
pleaded for help over and over again from the city and from the 
State. Search and rescue efforts were haphazard and 
uncoordinated, and the result was the needless and tragic 
deaths of dozens of these nursing home patients.
    When it became evident to you that the nursing homes had 
not evacuated and when you got these reports of the pleas for 
help, what actions did you take?
    Mayor Nagin. Well, Madam Chairman, we had requests for 
evacuation and support from a lot of different individuals 
throughout the city. I can only speak for the City of New 
Orleans. I cannot speak for the rest of the State. But if we 
had someone to request from a nursing home that they needed the 
support, we tried to prioritize that based upon the information 
that we were getting and the available resources that we had, 
and we tried to get to those individuals as quickly as we 
could.
    Chairman Collins. Did you ask city workers to check on all 
the nursing homes?
    Mayor Nagin. Well, prior to the actual storm hitting, Madam 
Chairman, we had all of our police officers comb the city. And 
they went out with their lights on, and they went throughout 
all of the neighborhoods in the city to make sure that people 
understood that we were moving toward a mandatory evacuation. 
They visited nursing homes and hospitals and various 
institutions throughout the city to try to help them to make 
sure that they had what they needed to evacuate.
    Chairman Collins. But that is prior to it becoming evident 
that the nursing homes had not evacuated, that their patients 
were in grave danger. Did you call the Louisiana National Guard 
to come help? What did you do when you started getting those 
pleas for help?
    Mayor Nagin. We were calling everyone, Madam Chairman. We 
even had some prestaged boats at the National Guard's offices, 
and we had at least 30 or 40 boats prestaged, and after the 
event, we only had seven or eight that were available to us. So 
we started to make calls to the State and to the Federal 
Government to try to get more resources to deal with not only 
the nursing homes, but the individuals that were on roofs and 
in their attics.
    Chairman Collins. Senator Lieberman.
    Senator Lieberman. Thanks, Madam Chairman.
    Thanks, Mayor. In my opening statement, I referred to a 
letter that our staff came across dated October 1, 2002. It is 
in your book as Exhibit 21.\1\ It is a follow up to a meeting 
that our colleague Senator Landrieu apparently called after 
Hurricane Isadora hit New Orleans and the Gulf Coast. It is 
just another piece of evidence that people in the region really 
were on notice and lived with the fear of the big one coming. 
What is really striking in this letter is your response to 
Senator Landrieu after that meeting--I assume you wrote to 
other members of the congressional delegation--about what was 
needed. It goes right to some of the things that we saw: The 
communications systems were not compatible, more pumping 
stations, electric generators, emergency communications and 
technology systems must be approved. You asked for money to do 
that. Hospital generators must be elevated above basement 
level. We talked about that yesterday. A light rail system is 
needed to evacuate New Orleans residents, and a shelter of last 
resort is critical for safety of the residents of the Southeast 
Louisiana region.
---------------------------------------------------------------------------
    \1\ Exhibit 21 appears in the Appendix on page 133.
---------------------------------------------------------------------------
    As we look back at it, as I said earlier, it is this 
question of what might have been. One of the ``what might have 
beens'' we heard yesterday was from Dr. Stephens of the Health 
Department, where he took it upon himself to start negotiating 
for transportation assets to move people out of harm's way 
before a hurricane hit. Did that, Mayor, ever reach you? Were 
you aware of his efforts? It is frustrating to look at it now 
because it looks like he was negotiating for more than a year, 
had agreements, and they never came into being.
    Mayor Nagin. Right. Those negotiations were started by the 
previous head of our EOC, which was Chief Tullier, and he 
resigned, and there was an interim period or a period of time 
when we were searching for his replacement. During that search, 
Dr. Stephens got involved and talked to a lot of different 
entities. And then right before, a couple of months before the 
storm, Chief Mathews was hired as being the head.
    But getting directly to your point, we tried to do some 
memorandums of understanding with various entities, whether 
they be the Regional Transit Authority or the School Board or 
some paddle-wheel boats----
    Senator Lieberman. And again, these were for transportation 
assets, hopefully to move people out who otherwise couldn't get 
out before a hurricane.
    Mayor Nagin. Absolutely. We were trying to make sure that 
we had every tool available in our tool box that we felt we 
needed in the event of an emergency. Those agreements never got 
done for a lot of different reasons.
    Senator Lieberman. When you look back--I don't have a lot 
of time--why do you think that happened? Why didn't they get 
done so the resources were there?
    Mayor Nagin. Well, I think, putting together those types of 
agreements is a little complex in our particular area. RTA, the 
Regional Transit Authority, we really did not need as a formal 
agreement as much because I appoint all of those board members 
and we have direct control over those resources. The School 
Board is a little different matter, and it's a little more 
complicated from the standpoint that the system was in crisis. 
They had lots of administrative challenges, and it was next to 
impossible to confect any type of agreement with that agency.
    Senator Lieberman. A lot of reasons, but, obviously, you 
wished the agreements had been signed prior to the hurricane.
    Let me ask you this factual question. On the day of 
landfall, when did you learn, to the best of your recollection, 
that the levees had broken? Because, obviously, that took this 
from being a hurricane to being a disaster.
    Mayor Nagin. Well, it was sometime Monday after the storm 
had hit. The gentleman from FEMA, Marty, came to see us. We 
were waiting for the winds to die down so we could go up. He 
had already flown up. He then gave us a very graphic report 
that the levees had failed in the Lower 9th Ward at the Florida 
Avenue Canal, and there were some other breaches. But at that 
time, I don't recall that the 17th Street nor the London Avenue 
Canal had breached at that time.
    Senator Lieberman. What did you do upon receiving that 
information? Did you attempt yourself to communicate that to 
Federal officials?
    Mayor Nagin. Yes. We started the process immediately as we 
would get information. Marty was also communicating up the 
Federal lines. We wanted to make sure that State officials 
understood, and more importantly, we were really focused on the 
rescue efforts, if there were people that were down in the 
Lower 9th Ward that had problems, how do we get to them 
quickly?
    Senator Lieberman. Right. One of the questions that we are 
going to be looking at is what kind of support and capabilities 
the Department of Defense can provide in a crisis like this and 
what you were looking for. I gather that after landfall both 
the Governor and yourself had been making requests for 
involvement by the National Guard and the military generally; 
is that correct?
    Mayor Nagin. That is correct.
    Senator Lieberman. And National Guard troops came into 
Louisiana and New Orleans from around the country, but that 
does not begin until Wednesday. That said, according to 
testimony that we have from your Communications Director, which 
is in Exhibit 16,\1\ you continue to see a need for additional 
capabilities from the Federal Government as the week went on.
---------------------------------------------------------------------------
    \1\ Exhibit 16 appears in the Appendix on page 107.
---------------------------------------------------------------------------
    I presume it was one of the things that led to your meeting 
with the President and the Governor on Friday, September 2. I 
just want to ask you a series of questions about those 
meetings. Prior to that meeting on September 2, had you and the 
Governor reached some kind of agreement about what assets and 
capabilities you were going to seek from President Bush?
    Mayor Nagin. As far as an agreement, well, it was basically 
a discussion of and a focus on the amount of Federal resources 
we needed to continue the rescue efforts and the dewatering 
efforts. That was the primary focus.
    Senator Lieberman. At that meeting, did you ask 
specifically for anything from the Department of Defense, to 
the best of your recollection?
    Mayor Nagin. I was specifically asking for a clear chain of 
command as it related to who had final authority so that we 
could get things moving much quicker.
    Senator Lieberman. You mean for the Federal Government 
generally in New Orleans?
    Mayor Nagin. Yes.
    Senator Lieberman. In response--because at that point you 
felt that there was not a clear chain of command.
    Mayor Nagin. I felt as though--and I think I described it 
in this manner at that meeting--that there was an incredible 
dance going on between the Federal Government and the State 
Government on who had final authority, and it was impeding, in 
my humble opinion, the recovery efforts, and it was very 
frustrating. I suggested that they put General Honore in 
control for a period of time.
    Senator Lieberman. Right, National Guard.
    Mayor Nagin. They would just coordinate every resource that 
was available to expedite the needs that we had.
    Senator Lieberman. Was a decision made at that meeting with 
the President and the Governor?
    Mayor Nagin. No.
    Senator Lieberman. Do you recall any conversation at the 
meeting with President Bush and Governor Blanco on Friday, 
September 2, about the need to invoke on the Insurrection Act 
or any attempt or discussion of a possible decision by the 
President to place the Louisiana National Guard under the 
control of the Department of Defense?
    Mayor Nagin. I was not privy to those particular 
discussions. I do remember a discussion about posse comitatus, 
and there was some talk about that, about what could and could 
not be done.
    Senator Lieberman. Did the principals at the meeting--just 
to wind it up--come to a conclusion, as you recall it, about 
what assistance the Federal Government would provide that it 
was not providing up until that point on Friday, September 2?
    Mayor Nagin. To be real frank with you, that meeting left 
me somewhat disappointed.
    Senator Lieberman. In what way?
    Mayor Nagin. Because there was no real decision that was 
made at that meeting, and I think there was a 24-hour period 
where the President and the Governor were going to get back 
together.
    Senator Lieberman. And that was about the question of 
whether the National Guard would be federalized?
    Mayor Nagin. It was just a question of who had final 
authority. I am not sure the details of what they were 
debating.
    Senator Lieberman. And so at that point you felt that held 
up a clear decision about other questions regarding Federal 
authority?
    Mayor Nagin. Yes. I was hoping that--we had everyone in the 
room that was decisionmakers----
    Senator Lieberman. Sure. Well, you had the President, the 
Governor, and yourself.
    Mayor Nagin [continuing]. That could make a decision at 
that meeting and move forward. I was very--I probably was a bit 
pushy at that meeting because in the midst of all the rhetoric 
that was going on around the table, I stopped everyone and 
basically said, ``Mr. President, Madam Governor, if the two of 
you don't get together on this issue, more people are going to 
die in this city, and you need to resolve this immediately.'' 
And they said, ``Yes.'' And I said, ``Well, everybody else in 
this room, let's leave and let them work this out right now.''
    Senator Lieberman. And the two of them then stayed alone in 
the room?
    Mayor Nagin. No. The President said, ``Nobody has to leave. 
We'll go in another room and see if we can work this out.''
    Senator Lieberman. So the Governor and the President did go 
in the other room and continued discussions.
    Mayor Nagin. They went in a private room.
    Senator Lieberman. My time is really up, but just a final 
word. So it went at least 24 hours. When do you think you got 
the clarity of decision that you were looking for from the 
Federal Government?
    Mayor Nagin. It was sometime around the 24-hour mark. I 
think they, obviously, must have come to grips with Admiral 
Allen as being the key person, and he showed up, and that was 
history.
    Senator Lieberman. Thank you.
    Chairman Collins. Senator Coleman.

              OPENING STATEMENT OF SENATOR COLEMAN

    Senator Coleman. Thank you, Madam Chairman.
    Mr. Mayor, good to have you here. Let me start off first 
just reflecting on the Stafford Act. Clearly, we need to take a 
look at that. I had a chance to be in New Orleans recently with 
the Chairman, the Ranking Member, and a couple of my 
colleagues, and there is a lot of work to be done, and you have 
to have people doing it. So I hope that we take a look at that.
    Let me express one of my concerns. As I watch this, one of 
my concerns is about where we go in the future; that as a 
result of what looked like inaction at the local level, there 
is a lot of talk now about needing the Federal authorities to 
come any time there is a major crisis and take care of this. 
The reality is that those who are closest to things on the 
ground, I think, have to be very much involved, if anything, 
directing, saying, ``Hey, we need it,'' and then get it 
delivered.
    But I worry, as an offshoot of a perception that folks on 
the ground were not in charge and were not making things 
happen, that there will be a move to change this, and I think 
we have to reflect on that.
    One of the other things that has come up in these 
discussions and hearings has been a lot of finger pointing as 
to who was in charge. We had Levee Board folks here and the 
State folks here and the Corps of Engineers here, and I have to 
tell you, everyone was pointing every different way as to, 
well, ``It was their responsibility.''
    Let me step back a little bit to discuss your communication 
abilities on Tuesday after we know the levees had broken, 
disaster has totally hit way beyond the hurricane. Can you talk 
about where you were operating out of and what kind of 
communication capacity did you have on that Tuesday?
    Mayor Nagin. I was operating pretty much out of our EOC 
office at City Hall, but more directly across the street in the 
Hyatt Regency Hotel. We had an office that we had occupied, 
along with our utility company, as well as the military was in 
and out of there on a regular basis. It was a convenient 
location from the standpoint that we had access to the 
Superdome and to the heliport.
    Senator Coleman. To be very blunt, the perception was that 
you were up there, kind of the last man going down with the 
ship, but not coordinating, not in touch, not really being in 
charge, but kind of trying to hold things together as it was 
falling apart. Did you have adequate communication linkages and 
equipment to get done what you thought had to be done?
    Mayor Nagin. Well, I think that's what's being missed in 
this whole discussion. You had a city that was totally 
devastated. Nothing like this has ever happened. When you look 
at what happened in September 11, it was a couple of square 
blocks in New York. This was totally different. All 
communications networks were pretty much failing, if not 
intermittent, and the only way we had to communicate was the 
old-fashioned way, to meet with people face-to-face, to send 
text messages. The cell phone system was inoperable. The phone 
system was down for the most part. So that perception was due 
to--or was contributed to because of the severity of the 
conditions.
    Senator Coleman. So I would take it that it would be your 
hope, as we come out of these hearings, that we address the 
issue of communication. Is there something today that you would 
have done--would you have placed yourself somewhere different? 
Would you have put yourself in a position to be more of a 
visible force, even if you couldn't be doing much, just 
physically out there? Would you change?
    Mayor Nagin. I probably would change a few things, but I 
wouldn't change much from this perspective. I made the decision 
very early that I was going to stay with the people that were 
suffering, and I was going to be a part of that, and I really 
didn't care about the political consequences, if you will, 
because I felt I had to feel exactly what those individuals 
were feeling in order to have the sense of urgency to make sure 
that change was happening as quickly as it was. So I didn't 
spend a whole lot of time trying to keep up with everybody 
doing these multiple press conferences that were going on all 
the time. I stayed focused on the needs of the people that were 
hurting.
    Senator Coleman. I would offer, respectfully, as a former 
mayor, that sometimes it is one thing to understand and to feel 
what folks are feeling, and it is another thing to be out there 
projecting, ``I am in charge, someone is in charge. We're going 
to take care of this,'' and kind of lifting up. And in the end, 
lifting up the sense of those who are suffering, and at least 
from the outside, the perception was that you were doing that, 
that you were right there feeling what people were feeling, but 
as a result it seemed like there was a void at the local level, 
and it did not seem like there was then anyone at the State 
level filling that need, or the Federal. I mean it seemed like 
every level of government did not do all that folks hoped they 
would do in what admittedly are circumstances that, unless 
others could be there, you could not imagine, because I came 
there 4 months later, and it is still hard for me to imagine. 
But that's just perception.
    I offer that and I would hope in the future for others in 
this that people reflect on that, but then have the tools that 
you did not have, the ability to communicate. We have not heard 
much about it. We have talked about it here. I just think it is 
absolutely critical, and that we are not leaving people 
isolated any more in crises like this.
    Mayor Nagin. Mr. Coleman, I appreciate those comments, but 
I will tell you, I have a huge box of satellite cell phones 
that did not work during this crisis. We tried just about 
everything possible. At the end of the day, I am more 
comfortable with the fact that by staying and doing the things 
that I did, we saved lives versus perceptions.
    Senator Coleman. Just a last question then on this issue of 
responsibility, State, Federal, if we were to be in this 
position again, if there were three things that you would 
change in regard to knowing who is in charge, just click them 
off, one, two, three, something more clear from the feds, 
something more clear from the State, something perhaps you need 
that you did not have?
    Mayor Nagin. Well, I don't know if I can click off any 
three things, but I just think that there needs to be a clearer 
chain of command that does not necessarily violate local input 
because when you're local you understand the needs much better 
than anyone else. But I think with that type of disaster, being 
overwhelmed by a hurricane, there needed to be more resources 
that came much quicker and not necessarily a dance on whether 
State or Federal authority rules. I mean that is just 
ridiculous to me.
    Senator Coleman. Thank you. Thank you, Madam Chairman.
    Chairman Collins. Thank you. Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Madam Chairman.
    Mayor Nagin, welcome to the Committee.
    Mayor Nagin. Thank you.
    Senator Akaka. I know you are still in the middle of a 
massive recovery effort in New Orleans. I want you to know that 
many of my constituents in Hawaii have written to me with deep 
concern about New Orleans and the people there. I want you to 
know also that our prayers have been with you and are still 
with you.
    Mayor Nagin. Thank you.
    Senator Akaka. Although we are here to examine your role in 
the Hurricane Katrina response, I would like to discuss with 
you the ongoing recovery and reconstruction activities going on 
there. Through these hearings, I have been concerned by 
numerous reports that New Orleans is not receiving adequate 
assistance for reconstruction and preparation for future 
emergency response.
    What are your top three needs that have not been met by the 
Federal Government?
    Mayor Nagin. Top three needs. The first one is temporary 
housing. We have a request for--depending upon who you talk 
to--45,000 to 65,000 temporary homes, whether they be travel 
trailers or what-have-you. We have only been able to deliver 
less than 2,000 travel trailers to date. That is probably one 
of the most frustrating things right now because we are having 
a very difficult time standing up our economy, and we are 
having a very difficult time getting our people back.
    The amount of travel trailers that can be installed on a 
daily or weekly basis will probably take us 6 months to a year 
before we can catch up. I don't understand it. You would think 
that this great country could bring contractors from around the 
country, around the world for that matter if they don't have 
them around the country, to expedite and get this job done. So 
that's the first thing.
    The second thing I will tell you is that we are in limbo 
and on hold as it relates to how individuals go in and repair 
their homes permanently. We do not have a Baker-type bill, 
which has been widely debated and now is not something that is 
going to be supported by the White House, which I understand. 
We do not have enough direct funding to go to an individual 
that did everything right, bought their home, lived above the 
floodplain, did not have to buy flood insurance, didn't buy 
flood insurance, and now the insurance company is basically 
saying this was a flood event and not a wind event, so 
therefore, you get zero. So we have lots of individuals that 
can't move back because they don't have the financial resources 
to accomplish that. So the lack of resources from that 
standpoint would be my second big point.
    My third point would primarily deal with the business 
aspects of the economy. New Orleans is an incredibly important 
center for this Nation and the State. We produce most of the 
seafood for the Nation, oil and gas. You name it, we do it, raw 
materials coming into the city. We do not have the resources 
for small businesses to get started up, whether they be 
fishermen, or whether they be people that support oil and gas. 
The GO Zone legislation was a great piece of legislation, but 
it targeted big businesses, and the small businesses do not 
have the support that they need right now.
    Senator Akaka. Thank you for that response.
    Mayor Nagin. Thank you.
    Senator Akaka. Prior to Hurricane Katrina hitting New 
Orleans, did you request any transportation resources from the 
Federal Government?
    Mayor Nagin. We have been making requests all along for 
support for light rail systems, enhancements to the 
transportation systems that we have in place. I had someone in 
my office contact Amtrak also prior to Katrina to see exactly 
if they had trains available so we could use those as another 
evacuation tool. What we got back was all of the trains were 
booked through September and we didn't have anything available. 
Then earlier than right before Katrina, we talked to Amtrak, 
and they said that basically they could only bring individuals 
to Hammond, which is not that far away from New Orleans, and 
that wouldn't be sufficient for evacuation purposes.
    Senator Akaka. Mayor Nagin, you testified that after 
reviewing the priority list compiled by Under Secretary Brown 
on August 29, Marty Bahamonde, the first FEMA representative on 
the ground in New Orleans, stated, ``This is one of the best 
plans I have ever seen presented by a city after a disaster.''
    However, when Mr. Bahamonde testified before this Committee 
in October, I asked him what was on the list that you gave to 
Under Secretary Brown, and he testified that he never saw the 
list. I would like to clarify this issue for the record. How do 
you reconcile these seemingly contradicting accounts?
    Mayor Nagin. Well, I met with Marty, and we talked about 
the disaster, and after he gave me his accounts on what had 
happened, and the breaches, and the highway systems that had 
been knocked down to the east, and I had already started to 
formulate some ideas on how we would start this recovery. And I 
had them on a white sheet of paper pretty much like this, and I 
shared all those thoughts with him, and that was the plan that 
I was proposing as we moved forward. And when we finished with 
that conversation and he looked at that list, he basically said 
that he had never had the opportunity to meet with a public 
official like this and to have such clear thoughts on exactly 
how we should move forward and how the resources should be 
focused.
    Senator Akaka. Thank you very much for that clarification. 
Mayor Nagin, an after-action report prepared by the New Orleans 
Police Department stated that the failure of the Office of 
Emergency Preparedness (OEP) was a significant problem. There 
was an unannounced change of location during the storm and a 
breakdown of communication between command staff and officers 
on the street. The report indicates that many officers and 
supervisors did not even know that OEP existed, despite the 
fact that OEP was designed to coordinate emergency functions. 
How do you respond to these criticisms?
    Mayor Nagin. The Police Department is a critical agency for 
us, and I am not sure who the gentleman was who testified. I 
will tell you this, that the police chief, the assistant police 
chief, all were very familiar with the operations of the OEP 
area and were pretty intimately involved in a lot of the 
planning. I would also point this out to you, that right after 
the storm, police headquarters was pretty much under water or 
took on a significant amount of water, and we had a very 
difficult time communicating with the various districts that 
were also under water. So there was a period of time where 
communication was definitely challenged, and it was difficult 
getting all the information out there we needed.
    As we gained access to those individuals through the police 
radio system that was working very infrequently, we started to 
commandeer and get people organized, but we had to do it in 
temporary locations.
    Senator Akaka. Thank you for your responses, Mayor Nagin.
    Thank you, Madam Chairman.
    Chairman Collins. Thank you. Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks, Madam Chairman. Mayor, welcome. It 
is good to see you.
    Mayor Nagin. Thank you, Senator.
    Senator Carper. We thank you for your presence here today 
and for your testimony. You mentioned the Baker proposals, 
Representative Baker. I have a number of questions. I am going 
to ask you not to dwell on this for too long, but just take a 
moment and just highlight the Baker proposal for us, tell us 
what you like about it, what you do not. In the face of the 
lack of support from the Administration, is it something we 
should try to support?
    Mayor Nagin. Well, the Baker bill, as I appreciate it, is 
designed to set up a corporation that would be targeted with 
the ability to go in and purchase homes and also to allow for 
mortgages to be forgiven to free up individuals to start to re-
create their lives at 60 percent of their pre-Katrina equities.
    Senator Carper. What do you like about it? What are its 
shortcomings, and is this something we ought to get behind and 
support?
    Mayor Nagin. Well, what I like about it is that it will 
provide us with another tool and more financial resources to 
make some individuals whole in the City of New Orleans, but 
also to give them some equity so that they can reinvest in 
other areas of the city that are on higher ground. I think you 
should support it.
    One of the things that I have heard from the White House 
that they're having a problem with is basically that it's open-
ended, there's no cap on it, which I think Congressman Baker 
would be able to deal with it, and then there is also grave 
concern about it being precedent setting from the standpoint 
now that the Federal Government is a huge landholder and in the 
redevelopment business.
    Senator Carper. Thanks very much.
    Mayor Nagin. Thank you.
    Senator Carper. Can you give us your perspective on what is 
going on with respect to the levees, fixing the levees, getting 
ready for the next big storm? How are we doing?
    Mayor Nagin. I had a briefing right before I came up for 
this hearing from the Corps of Engineers, General Crear, who 
has done a really good job. They seem to be moving along. They 
have lots of challenges. They have a couple of contractors that 
are a little behind schedule, but they have back-up plans. In 
addition to that, they are not going to be able to armor the 
levees, which I think is a huge weakness from the standpoint of 
if we have another Katrina-like storm. We're going to build 
better levees, but they won't be as strong as we originally 
thought.
    Senator Carper. Did you say armor the levees? What do you 
mean?
    Mayor Nagin. The levees, for the most part, were made with 
soil and grass, and the concept to armor them was going to rely 
more upon concrete, rocks, and wire mesh and other support 
systems on each side of the levees. The funding, it is my 
understanding, is not there for them to do that.
    Senator Carper. Any advice for us as we serve in our 
oversight role to try to make sure that the kind of problems we 
had with the collapsing of the levees and the overtopping of 
the levees does not happen again? What should we be doing to be 
more vigilant?
    Mayor Nagin. I think we ought to really pay attention to 
the design of the levees and utilize some independent 
scientists to look at that. Then I think we ought to really pay 
attention to the construction, the quality of the construction 
as it continues to go on.
    And then finally, just the pace of construction to make 
sure that it meets the timelines of the next hurricane season.
    Senator Carper. My understanding is that not only the 
levees provided significant defense to New Orleans and the 
region, but also the wetlands, I guess, to the south.
    Mayor Nagin. That is correct.
    Senator Carper. Anything going on with respect to those 
wetlands, restoration of those wetlands and helping you provide 
what I would call almost a first line of defense against----
    Mayor Nagin. It's my understanding that there's not a lot 
going on as it relates to wetlands restoration, and it's 
something that this Nation really needs to pay attention to a 
lot closer, in my opinion. For every mile of wetlands it allows 
for us to subside a storm surge by one foot, and since the 
coastal erosion problem in Louisiana is so severe right now, we 
probably lost 100 years worth of coastline as it relates to 
this storm, of coastline natural erosion. We're really 
vulnerable, and this Nation should pay attention to it and help 
us out.
    Senator Carper. Thanks. Switching gears here, you mentioned 
light rail options. I think you mentioned Amtrak and so forth. 
I think you said that your staff or someone in the city had 
reached out to Amtrak to ask if they could provide some 
assistance with respect to the evacuation. I think you 
mentioned the town of Hammond?
    Mayor Nagin. Yes.
    Senator Carper. My staff tells me that we understand that 
the day after Katrina made landfall that Amtrak offered to run 
up to, I think, four trains a day over some dry tracks that 
they had identified to move people out of New Orleans. This was 
after the fact. I am told each train could have moved maybe as 
many as 500-600 people with water and food. But in the end, I 
am told that it took several days to get the attention of the 
folks that were in charge. I realize you are up to your 
eyeballs in alligators and water, but it took several days to 
get the attention of people in charge, and that only one 
partially filled train was utilized on the Friday night after 
the storm, that was like 5 or 6 days after the storm came 
through, to take evacuees to Lafayette.
    I do not know if you are familiar with this saga, but if 
you could cast some light on it----
    Mayor Nagin. I've heard this story a number of times, and 
it keeps getting better every day. It's like catching a fish, 
the fish gets better as you talk about it. I heard the rumor 
right after the storm, was never able to confirm that. Even 
talked to Chief Mathews, who supposedly got the call, and he 
didn't recall getting that particular offer.
    But if that offer was on the table, and if they knew that 
we were struggling, why didn't Amtrak reach out to the State 
officials, to the Federal Government, to FEMA, and try every 
available avenue to make sure that people understand this was 
available.
    Senator Carper. Or vice versa. Some of those entities could 
have been reaching out to--somebody should have talked.
    Mayor Nagin. We called Amtrak prior to the storm, right 
before it hit, and they told us there was nothing available, 
and we took that as gospel, and maybe we shouldn't have.
    Senator Carper. One last question. Somebody mentioned--I 
think it was you--a light rail system. We are going to have 
more hurricanes in the future, as we all know. It could be as 
bad, maybe even worse than Katrina. But I understand that New 
Orleans and I think maybe it is the Baton Rouge transit 
systems, along with Amtrak, and I think Kansas City Southern, 
are in negotiations to establish commuter rail links between, I 
think, the two cities to help reduce some serious traffic 
congestion that has existed since New Orleans was reopened to 
its citizens and to its businesses. I just want to know what 
the status is of those negotiations, and how do you plan maybe 
to use this kind of commuter rail service in the future to 
assist, not just in moving people on a regular basis today, but 
to help us with possible evacuations in the likelihood of 
another hurricane, maybe as early as 5 or 6 months from now?
    Mayor Nagin. We have been talking with all the individuals 
that you mentioned, and it is my understanding that maybe two 
trains will be made available to have runs in the mornings and 
in the afternoons between Baton Rouge and New Orleans. Those 
trains are primarily designed to help the workers and evacuees 
that have moved to Baton Rouge to come back and forth between 
Baton Rouge and New Orleans. And we are going to look at that 
as an option for the future as an evacuation tool.
    Senator Carper. Thanks very much. Good luck.
    Mayor Nagin. Thank you.
    Chairman Collins. Senator Lautenberg.

            OPENING STATEMENT OF SENATOR LAUTENBERG

    Senator Lautenberg. Madam Chairman, first I want to 
congratulate you for your continuing review of what took place 
in these terrible days in our country. It has real value 
because if we learn what really happened, perhaps we can 
legislate change to make sure that if it does happen again, 
that we do not see the kind of consequences that came out of 
New Orleans.
    We have excellent witnesses, and we are happy to hear the 
Mayor's view. There has been a real effort with this and other 
hearings, but I want to raise some concerns about this 
investigation. As you know, Madam Chairman, I advocated the 
creation of an independent commission, not unlike the 9/11 
Commission, to see what happened with Katrina. Now, unlike 
congressional committees which often get stuck in politics, an 
independent commission would not be reluctant to issue 
subpoenas to get information. Unfortunately, what we see is a 
refusal by the White House to release documents and blocking 
officials there from speaking to the Committee, and that is, in 
my view, obstructing the Committee's investigation.
    The Department of Homeland Security, which this Committee 
has jurisdiction over, is even refusing to give us key 
documents, probably on the orders, likely on the orders from 
higher up.
    Madam Chairman, you and Senator Lieberman wrote to the 
White House, the Chief of Staff, Andrew Card, on January 12, in 
which you stated, ``The Executive Office of the President is 
hindering the Committee's efforts to obtain information.'' So 
we need to ask ourselves, why is the White House not coming 
forward in this review?
    I am not sure if this Committee, no matter how well 
intentioned, will ever be able to get to the bottom of this. We 
need to examine whether we should hand this investigation over 
to an independent commission with subpoena power.
    Mr. Mayor, your review of events has an amazing clarity to 
it, as you remember moments--I guess this gets seared in your 
mind when you are under that kind of pressure. I would ask you 
about the behavior of the police department in those days. I 
know you have been complimentary about the chief and the deputy 
chief. Were there mass absences? We read about that in the 
papers. I just want to hear what finally did take place during 
those stressful days.
    Mayor Nagin. Senator, there was some exodus among some of 
the New Orleans Police Department. We are in the process of 
completing hearings for every officer that was missing in 
action for one reason or another. We have gone through most of 
those, and we have had separations. Out of a group of 1,650 or 
1,690 officers, we probably will be separating with about 150 
officers. For the most part, most of the NOPD, New Orleans 
Police Department, operated at the highest level of heroics, 
but unfortunately, we did have some that were not engaged in 
the battle.
    Senator Lautenberg. That is not an unusual condition when 
stress really starts developing. It is too bad, but I trust, 
Mr. Mayor, that you are going to look at past training 
programs.
    Mayor Nagin. Yes.
    Senator Lautenberg [continuing]. And how discipline was 
developed.
    Mayor Nagin. Yes, sir.
    Senator Lautenberg. And I urge you to reinstate the 
confidence that people had. One of the things that we have 
heard from the President is that no one anticipated the breach 
of the levees, the weaknesses there. As far as you know, did 
anyone in the Federal Government tell you that there were 
recognized weaknesses there, and otherwise, was this a total 
surprise that the levees were weak?
    Mayor Nagin. Well, Senator, no one prior to the storm 
admitted that there were any weaknesses in any levee system. 
And if it wasn't for the failure of the levees, I wouldn't be 
here today testifying. This was something that was overseen and 
managed by the Corps of Engineers, along with some local 
support. Obviously, some of the forensic scientists that are 
looking at this now have uncovered some design flaws and 
construction flaws. It is absolutely amazing to me that a levee 
system that is so critical to this Nation and to the city had 
these problems.
    Senator Lautenberg. Mr. Bahamonde testified here in 
startling honesty, I thought, and said that there had been 
discussions in FEMA, none that he was directly associated with, 
but that he was aware of, that had discussed some weaknesses in 
the levees. The fact is that in the prior couple of years, 
funds were taken from the Corps of Engineers, reduced 
substantially from levels of about $30 million a year down to 
$3 million a year, designed for work on the levees. Now, they 
would not be working on the levees if there was no concern 
about the quality of the structure. So people knew that there 
was a weakness there that had to be taken care of, and yet, 
nothing happened to change that course.
    How do you see that having fallen by the wayside?
    Mayor Nagin. Senator, since I have been in office now about 
4 years, I have lobbied the Corps of Engineers, as well as 
Congress, consistently every year with this funding issue. It 
seems as though the Corps makes a request, it gets cut by OMB, 
I think it is. We come to the Hill, and we try to get either 
our Senator or Congressman to do a plus-up, and it is never 
enough money that we need. It just seems to be part of the 
process, unfortunately. The levees in New Orleans never really 
were understood as far as how critical they are, and there 
didn't seem to be the political will to spend the money to do 
it right.
    Senator Lautenberg. Thanks, Madam Chairman. I hope that we 
are going to be able to continue our pursuit of the truth here 
as much as one can determine. I congratulate you on this.
    Chairman Collins. Senator Levin.

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. Thank you, Madam Chairman. I also commend 
you and Senator Lieberman again for your determined effort here 
to get all the information we possibly can. It is a very 
thorough set of hearings. It is a very important set of 
hearings. I also want to join Senator Lautenberg in supporting 
your insistence that we get information from the White House 
and from the Homeland Security Department. There is no basis 
that I know of for denying this Committee that information. You 
and Senator Lieberman have made your request clear, and I think 
the entire Committee is supportive of those efforts to get 
documents and information, and I want to commend you on it.
    It is a disturbing pattern in this Administration of 
denying Congress important information. They do not assert 
Executive privilege, which they have a right to assert, they 
just deny us information. It is a pattern I have seen in other 
committees where we have tried to get information. It is 
totally unacceptable. It thwarts the checks and balances which 
the Constitution has put in place to have oversight of the 
Executive Department's operations, and we just have to keep 
putting all the pressure on them we know how to, and I hope, if 
necessary, subpoena documents.
    Welcome, Mayor.
    Mayor Nagin. Thank you.
    Senator Levin. Let me add my welcome to you. I understand 
there is still a large number of people unaccounted for. The 
number we have as of the middle of December is about 5,300 
people. What does that represent? Is there a list of 5,300 
people that are still unaccounted for? Is that on a website? Is 
there an effort being made to account for everybody who is 
unaccounted for?
    Mayor Nagin. Senator, that's a great question. I've seen 
several different numbers. They seem to range between 3,500 and 
the number that you just mentioned. Lots of the individuals are 
families that were separated, children that were separated from 
their mothers and fathers, and every day it is being worked on.
    I had a FEMA individual tell me that he was still 
receiving, FEMA was still receiving 25 calls a day from people 
looking for relatives or friends that they hadn't been able to 
locate. Some of them are senior citizens that were under 
medical care that may or may not have had identification as 
they were moved around the country, so it is just a bringing 
together of a lot of the people.
    Unfortunately, it may be some individuals that were 
potentially washed away as a result of the storm, so we just 
don't know right now.
    Senator Levin. Is there one place where the number of 
unaccounted for people are listed?
    Mayor Nagin. It is my understanding the State has a 
listing, as well as FEMA.
    Senator Levin. Right. There are three meetings which I am 
interested in, and a number of the Members of the Committee, I 
think, have already asked you and other witnesses about. One is 
the Monday evening meeting with FEMA, where you gave them a 
priority list which identified commodities and equipment. The 
priority list that you provided to FEMA on that Monday included 
buses to get people evacuated from the Superdome and other 
places.
    Did FEMA require a specific request from the Governor 
before they supplied the buses which you requested at, I 
believe, a Monday night meeting with them?
    Mayor Nagin. Yes. I wasn't privy to those discussions, but 
it's my understanding that FEMA would discuss whatever needs we 
had with the State, and hopefully, that was coordinated to 
provide the resources that we need.
    Senator Levin. Were you the Incident Commander for New 
Orleans under the National Response Plan?
    Mayor Nagin. It's my understanding that myself and Colonel 
Terry Ebbert were designated in that fashion.
    Senator Levin. As the Incident Commander for New Orleans?
    Mayor Nagin. I'm not sure, sir.
    Senator Levin. It is our understanding there was a National 
Response Plan and that the Mayor was so designated. Are you 
familiar with the National Response Plan?
    Mayor Nagin. Yes.
    Senator Levin. Whose responsibility was it to get the food 
and the water and other supplies to the Convention Center? Was 
that yours? Was it the State's? Was it FEMA's? Whose 
responsibility? I am now talking not about evacuation, but the 
food and supply need at the Convention Center.
    Mayor Nagin. It's my understanding it was a joint 
responsibility.
    Senator Levin. Between whom and whom?
    Mayor Nagin. Between the locals, the Federal, to get the 
initial supplies. And then we were always under the impression 
that the Federal Government would provide supplies after the 
initial period.
    Senator Levin. When people started flowing into the 
Convention Center, I think as early as Monday, but clearly on 
Tuesday, and then major numbers Tuesday, Wednesday, the failure 
to provide food and water to those people, whose responsibility 
was it? Was it yours? Was it FEMA's? Where did that 
responsibility rest? I will ask that first.
    Mayor Nagin. We took responsibility for making sure those 
individuals would have food and water for at least 3 days.
    Senator Levin. But they did not.
    Mayor Nagin. They did.
    Senator Levin. Three days. They did not have it----
    Mayor Nagin. In the Superdome.
    Senator Levin. I am talking Convention Center.
    Mayor Nagin. The Convention Center is a different----
    Senator Levin. That is the one I am asking about. Whose 
responsibility was it to get food and water to the people at 
the Convention Center, which was the back-up facility?
    Mayor Nagin. The primary facility, the local government had 
total responsibility, as well as the State for that. The 
Convention Center was a shelter that evolved as it relates to 
the event. The Superdome filled up to capacity, and we were 
looking around for another facility to house people on a very 
temporary basis, and then we made a request to FEMA to provide 
food and water for those individuals.
    Senator Levin. Your Monday night list though, the 
Convention Center was listed as a refuge of last resort in lieu 
of the Superdome; is that not correct?
    Mayor Nagin. No, it evolved, sir.
    Senator Levin. Finally, the meeting that you had with the 
President on Friday, did the President at that meeting request, 
suggest to the Governor, that the National Guard be 
federalized?
    Mayor Nagin. I did not hear that conversation, sir.
    Senator Levin. Would you have heard it if it existed? I 
mean, were you there?
    Mayor Nagin. Yes, I was there, but there was a private 
meeting that the President and the Governor had, which I was 
not privy to.
    Senator Levin. Did you suggest to the President that that 
happen?
    Mayor Nagin. I did not. I suggested that we have one chain 
of command, and my suggestion was that General Honore assume 
that position.
    Senator Levin. Over the National Guard?
    Mayor Nagin. Yes, sir.
    Senator Levin. That would then be the federalization of the 
National Guard because he is with the Federal Government.
    Mayor Nagin. I was thinking more from a coordination role.
    Senator Levin. I see. Thank you. Thank you, Madam Chairman.
    Chairman Collins. Thank you.
    Mr. Mayor, I want to follow up on several issues that have 
been raised. You had an exchange with Senator Lieberman about a 
critical meeting you had with the President and the Governor to 
try to straighten out the confused chain of command.
    Mayor Nagin. Yes, ma'am.
    Chairman Collins. And you described it very eloquently as 
an incredible dance between the Federal Government and the 
State Government that impeded the response. And it must have 
been extraordinarily frustrating to you to hear this dispute 
over who was going to be in charge of the National Guard 
assets, when all you wanted was someone to be in charge and to 
start delivering help to your city. Is that a fair summary?
    Mayor Nagin. That is very fair.
    Chairman Collins. You mentioned that the meeting concluded 
without a decision. Was it not the Governor who asked for 24 
hours to make a decision on the two options that the President 
presented to her?
    Mayor Nagin. That's my understanding of what happened.
    Chairman Collins. I just wanted to clarify that point. I 
want to follow up on Senator Levin's point about the Convention 
Center. It is my understanding that you decided to open the 
Convention Center on August 30 because you had flooding and 
overcrowding at the Superdome. Is that correct?
    Mayor Nagin. Yes, that's correct, ma'am.
    Chairman Collins. So then search and rescue teams began 
delivering people to the Convention Center. In addition, people 
just flocked there on their own.
    Mayor Nagin. Yes, ma'am.
    Chairman Collins. The Louisiana National Guard has 
estimated that there were as many as 19,000 people at the 
Convention Center. So you have this huge exodus to the 
Convention Center, and yet, as Senator Levin pointed out, and 
as your timeline affirms, the Convention Center, unlike the 
Superdome, was not supplied with food and water. Is that 
correct?
    Mayor Nagin. The Convention Center was a refuge of last 
resort that came out of necessity, and as it started to 
develop--the 19,000 didn't happen overnight. It was something 
that evolved. The hotels started to evacuate because their 
diesel power was running out, and people were coming from the 
hotels, from other parishes, and individuals were walking out 
of the water along the river, which was the high side, to go to 
the Convention Center. We did not have the resources to provide 
food. Water ran until the pump stopped, so there was water over 
there, and then when the pump stopped, there was not. So we had 
to get FEMA to provide bottled water.
    Chairman Collins. And indeed in the timeline from your 
office, there are entries for Wednesday, August 31, that say 
``Convention Center numbers growing, no food or water.'' And on 
Thursday, September 1, ``Convention Center numbers growing, no 
food or water.'' We also know from widely publicized reports 
that neither Homeland Security Secretary Chertoff nor FEMA 
Director Michael Brown were even aware that the Convention 
Center was open and being used for a shelter. They did not, 
according to their interviews, understand that until Thursday, 
September 1.
    I am trying to get a clearer picture of why the city sent 
people to the Convention Center when there were no supplies 
there and no security. Why wasn't there communication with FEMA 
to ask for supplies? We have gone through roughly 800,000 pages 
of documents, and we cannot find any evidence of a request from 
the city or from the State to FEMA to get supplies to the 
Convention Center.
    Mayor Nagin. With all due respect to Secretary Chertoff and 
Mr. Brown, I don't understand how anyone in authority, with 
this type of crisis, can say that they were not aware that we 
had a crisis in New Orleans and we had people that were 
stranded on roofs, on highways, and at the Convention Center 
and they didn't know about it. That is just next to impossible. 
The entire Nation was enthralled on this disaster, so I 
categorically reject their claims.
    Chairman Collins. I find that extremely troubling as well, 
because as you point out, you could turn on the television. 
Those of us not in Louisiana had access to television, and we 
could see what was happening. But did the city inform FEMA or 
did the city inform the State that you had an unexpected 
situation where you opened up the Convention Center, which you 
had not supplied with food, water, medical teams, or security, 
and that you needed help?
    Mayor Nagin. Yes, ma'am, every day, twice a day, three 
times a day. FEMA was with us in our OEC. I had evacuated most 
of my executive staff to Baton Rouge. We were able to 
communicate with them, although intermittently, about the 
challenges. My chief administrative officer was communicating 
with the State officials as well as Homeland Security officials 
who were congregated in Baton Rouge. So I am absolutely 
appalled that they would be saying this.
    Chairman Collins. That is an issue that we will take up 
when they come before us. I also want to follow up on Senator 
Levin's question about the assessment of needs that you 
provided to Marty Bahamonde of FEMA that you have mentioned. It 
is Exhibit 7 \1\ in your book, dated August 29.
---------------------------------------------------------------------------
    \1\ Exhibit 7 appears in the Appendix on page 102.
---------------------------------------------------------------------------
    I have read through this pretty carefully, and I do not see 
any request for buses. I just wanted to clarify that for the 
record. But also to ask, given the problem of evacuating people 
without the means to evacuate themselves, why didn't you, in 
this rather comprehensive list, request buses? A lot of your 
buses were flooded at that point.
    Mayor Nagin. Madam Chairman, this is one of many requests 
that were made by us. Some were made in writing. This request 
was more about physical assets than other needs. We spoke 
firsthand with Marty about the need for buses. They had three 
FEMA representatives that came down right after I spoke with 
Marty, and they were in charge of the buses. We had 
conversations with them as well as the Governor and the 
Senators at the heliport about the need for buses and other 
needs. This was done on almost a constant basis.
    Chairman Collins. Thank you. Senator Lieberman.
    Senator Lieberman. Thanks, Madam Chairman.
    Mr. Mayor, let me go back to something we talked about 
before. We have testimony, generally referred to yesterday, but 
really more specifically from one of the witnesses the 
Committee interviewed. This was about requests that the New 
Orleans Fire Department had made to the city for additional 
purchasing of boats.
    Mayor Nagin. Right.
    Senator Lieberman. Obviously, this goes back to Hurricane 
Pam and the fear that if the hurricane hit, the levees would 
break, there would be flooding, and there would be a need for 
some capacity for water rescue. So to the best of your ability, 
what happened to the fire department's request for more boats?
    Mayor Nagin. Well, we heard their request. I coordinated 
the boat situation with Chief Compass, and we were able to 
secure--I think it was 40 boats prior to the event.
    Senator Lieberman. You said in that weekend?
    Mayor Nagin. Yes, prior to the event, and those boats were 
staged at the National Guard facility, which was along the 
river in the by-water, the upper 9th Ward area.
    Senator Lieberman. Where did you get them? Do you remember?
    Mayor Nagin. We rented some, we purchased others. I mean we 
had a contingency of boats. Then right after the storm, some of 
them were blown away and we couldn't get to others.
    Senator Lieberman. Actually, that part of the story is one 
of the remarkable, most admirable parts, and I kept hearing it 
all around; the resourcefulness of, in some cases, 
commandeering boats, hot-wiring them to carry out the rescue.
    Mayor Nagin. That was post the event. That was when we 
started to commandeer. Pre-event we had some staged.
    Senator Lieberman. I was looking back a little bit further. 
Just from the point of looking at what happened in the budget 
process, I gathered that the fire department meant as much as a 
year before, maybe even more than that, they had requested more 
fire boats and they were turned down.
    Mayor Nagin. They were probably requesting, in their 
budget, a purchase of boats----
    Senator Lieberman. That is right.
    Mayor Nagin [continuing]. As a normal operating expense, 
and being an urban center that was cash strapped, I'm pretty 
sure it didn't survive the budget process.
    Senator Lieberman. As I hear you, I had not been thinking 
about it as I asked the question, but unfortunately--I will 
just say this real briefly--it is part of a larger problem, and 
it is why some of the Federal funding programs for purchase of 
equipment by local fire and police departments are so important 
because the local first responders' budgets are so greatly 
consumed with personnel costs that often there is not the money 
left over for the acquisition, as in this case.
    Mayor Nagin. That's correct.
    Senator Lieberman. Let me go back to that FEMA list, the 
list you gave to FEMA that we talked about. My recollection is 
that you met with Michael Brown, was it Monday night? It must 
have been Tuesday morning because I think--well, Monday night 
or Tuesday morning.
    Mayor Nagin. It probably was Tuesday because Monday I don't 
think he was there.
    Senator Lieberman. He was not around, that is correct. I 
guess I would ask you for your impression first. I will give 
you my impression--and you were there. I was startled that 
Marty Bahamonde was basically, for a period of time, Saturday 
and Sunday and into Monday, the only FEMA person on the scene. 
Were you surprised as the crisis came?
    Mayor Nagin. I was surprised at a lot of things, but FEMA, 
I think, underestimated this event. Marty understood it because 
he was in the midst of it. But I think everyone up the food 
chain really underestimated it even to the point of getting the 
accurate information to the President, himself.
    Senator Lieberman. Yes, I have that question myself as this 
goes on. And that underestimation that you are talking about by 
FEMA of Katrina, if I understand you correctly, is not just in 
the days leading up to it, notwithstanding the Dr. Mayfield 
warnings and all, but in the immediate aftermath of landfall as 
well.
    Mayor Nagin. Absolutely. One of the things I noticed about 
some of the FEMA resources that were there was they all were 
well meaning, but they over-promised and under-delivered on a 
fairly consistent basis.
    Senator Lieberman. You have anticipated my next question, 
which is: As we look at the list that you gave FEMA--and as you 
said in the last exchange you had, it was not the only series 
of requests you made--would you say in that first week to 10 
days or so that FEMA came through for New Orleans?
    Mayor Nagin. No, I wouldn't say that. I think that they 
struggled, they continue to struggle, and I hope another city 
does not go through this.
    Senator Lieberman. Amen. I heard a story, and I want to ask 
you if you could recollect it in your own words, that sometime 
later in the week, perhaps Saturday, Secretary Chertoff came to 
town and you went to the FEMA staging area, which was at the 
New Orleans Saints practice field.
    Mayor Nagin. You heard about that, huh?
    Senator Lieberman. Yes. So I am right so far?
    Mayor Nagin. Yes, you are.
    Senator Lieberman. And am I right that you saw at the field 
a number of items that you had requested like lights, portable 
toilets, and ice that the city needed, but for some reason 
remained on the field?
    Mayor Nagin. I am testifying, right, so I'm going to make 
sure I do this without getting too excited. I was so 
flabbergasted--I mean we were in New Orleans, we were 
struggling. The city was touch and go as it relates to 
security. And when I flew out to Zephyr Stadium, to the Saints 
facility, I got off the helicopter and just started walking 
around, and I was awestruck.
    We had been requesting portable lights for the Superdome 
because people were standing at night and all over. To make a 
long story short, there were rows of portable lights.
    We knew sanitary conditions were so poor we wanted 
Portolets. They had Portolets all around the Saints facility.
    I stopped and talked to a gentleman who was a firefighter 
from California. I said, ``Man, it's great for you to be here. 
You just got here, right?'' He said, ``No. We drove all night, 
36 hours. We've been sitting around, waiting for the orders to 
go into the city to help.''
    Then we went into the facility because I hadn't eaten, and 
it was like the Ritz Carlton.
    Senator Lieberman. You mean at the field?
    Mayor Nagin. At the field. They had water. They had ice. 
They had everything you could--they even had doggone 
watermelons on the counters. And our people were down in the 
city eating MREs.
    Senator Lieberman. Was Mr. Brown there, Michael Brown?
    Mayor Nagin. Yes, Mr. Brown was with the Secretary.
    Senator Lieberman. Did you ask either Secretary Chertoff or 
Director Brown what was going on?
    Mayor Nagin. I was so upset that I didn't because they 
called me and said, ``Drop everything, we need to see you.'' 
And when I got there, it seemed like it was more of a press 
event than anything else.
    Senator Lieberman. That is not just a sad story. It is an 
outrageous story, and it is one, I assure you, that we will ask 
Secretary Chertoff and Mr. Brown when they testify to explain 
to us. Thank you.
    Mayor Nagin. Thank you.
    Chairman Collins. Senator Coleman.
    Senator Coleman. Thank you, Madam Chairman. I will also 
join in efforts to make sure that we get full access to 
information, but I do want to say that--is this our 14th 
hearing?
    Chairman Collins. Yes.
    Senator Coleman. That any inference that the efforts of 
this Committee are inadequate to have oversight and figure out 
what is going on is simply beyond the pale, and I just want to, 
for the record, reject that. This is an extraordinary effort 
that you and the Ranking Member have been leading in a 
bipartisan way, and I am overwhelmed by what is being done and 
what will continue to be done. I just wanted to put that on the 
record.
    Mr. Mayor, you are not known for understatement, but saying 
that FEMA underestimated the event, both in their response and 
afterwards, is an understatement, and I appreciate your----
    Mayor Nagin. Restraint.
    Senator Coleman. Your restraint in that.
    Mayor Nagin. Not known for that. [Laughter.]
    Senator Coleman. I share the outrage of my colleague from 
Connecticut, and we will pursue that.
    Let me just ask you one question about the buses. We have 
talked a lot about that. It is clear, as you know, that not 
everyone was going to get out, and I have heard stories, 
anecdotes, parents never left and grandparents never left, and 
we have been through this before. So you know that no matter 
what your plans are, they are not going to get out.
    Mayor Nagin. Right.
    Senator Coleman. There was a story in the Washington Post 
that talked about buses that were left, hundreds of buses, 
school buses were left idle in flooded parking lots after 
Katrina because the bus drivers fled. Who was responsible for 
those folks and having them understand what their 
responsibility is and what you needed them to do?
    Mayor Nagin. That was the School Board. Those buses were 
the School Board buses, and they pretty much coordinated those 
efforts.
    We have Regional Transit Authority, where we have city-
owned buses that we staged in high ground and never flooded, 
and we were able to keep a small contingency of our bus drivers 
to get people from their homes to the shelters of last resort, 
and after that they evacuated also.
    Senator Coleman. I raise it because another authority, 
School Board and something, and one of your concerns has 
clearly been about line of authority, and who is in charge 
above you. But I would suspect that on a city level, as you 
kind of look at this, and we look down the road, is the way 
that one can strengthen your power as Mayor over--even though 
you do not have control over the School Board, I presume in New 
Orleans, like in St. Paul, but that in times of crisis, is 
there something that has to be done to give you the very clear 
authority over all these entities so we do not have a situation 
where we have the Levee Board saying one thing and School Board 
saying another and city folks something else.
    Mayor Nagin. It is not necessarily after the event or when 
the event happens that there is a lack of authority, but to 
force the issue of MOUs and moving buses out prior to an event, 
that is where the authority is lacking. Once the event happens, 
we declare a state of emergency and we can commandeer, but by 
commandeering at that point in time, it is a little late.
    Senator Coleman. When you are sitting there, it is Tuesday, 
all heck has broken loose, your city is being destroyed. You 
know you have citizens out there without the ability to get 
out. What are you thinking at that point in time and what are 
you doing then to say, hey, we are going to get these people 
out. What are the things that are right in the forefront of 
your consciousness at that time?
    Mayor Nagin. It was resource allocation. How many resources 
did I have to take care of this particular mission? What other 
resources I can gather. How can I coordinate communications 
when communication systems are pretty much down? Those sorts of 
things run through your mind.
    Senator Coleman. You mentioned the satellite phones. Aren't 
they supposed to work regardless of whether you got----
    Mayor Nagin. They were supposed to work. I don't know what 
was going on. I have a whole box of them if you'd like one.
    Senator Coleman. If they worked I would like one, but 
obviously they do not. That is all I have. Thank you, Mr. 
Mayor.
    Mayor Nagin. Thank you.
    Senator Coleman. Thank you, Madam Chairman.
    Chairman Collins. Thank you. Senator Levin.
    Senator Levin. Thank you, Madam Chairman.
    You indicated that the use of the Convention Center was 
unexpected and came out of necessity, and that somewhat 
mystifies me, given your own presentation to FEMA on Monday 
night and Tuesday, where you explicitly laid out the Convention 
Center backup as being a real possibility. And I want to read 
to you from Exhibit 7, which I gather you either read from or 
talked about Monday night, and then gave it to FEMA on Tuesday, 
as I understand it.
    Mayor Nagin. That is not the Convention Center.
    Senator Levin. It is the Convention Center, and that is 
what I want to go through with you, on Exhibit 7.\1\
---------------------------------------------------------------------------
    \1\ Exhibit 7 appears in the Appendix on page 102.
---------------------------------------------------------------------------
    Mayor Nagin. OK.
    Senator Levin. This is from your office on Monday, and it 
is an impressive document. I think the Chairman is correct, it 
does not make specific reference to buses, and you were asked 
about that.
    Mayor Nagin. Right.
    Senator Levin. Take a look at your notice to FEMA.
    Mayor Nagin. Alternative needs.
    Senator Levin. You put them on notice according to this, 
your document. You put them on notice Monday night and then 
handed them this document on Tuesday. ``Access to the 
Convention Center to use it as the refuge of last resort in 
lieu of the Superdome,'' as an alternative need. You laid it 
out to them. ``If this option is exercised, each of the above-
listed needs would also be required for the Convention 
Center.'' And one of the above-listed needs was--if you look at 
the dot right above that request, it says from FEMA, but I 
assume it means to FEMA, for ``assistance in providing food, 
water and toiletries for evacuees.'' So if this is accurate, 
you indeed did notify FEMA.
    Mayor Nagin. Yes. But if you notice the last sentence it 
says, ``Drs. Stephens and Lupin are exploring the feasibility 
of this option.'' We were looking around saying, where could we 
possibly go? And we were not certain at that time that was an 
option. We were looking at it.
    Senator Levin. You were looking at that option and notified 
FEMA that you were looking at that option.
    Mayor Nagin. Yes, sir.
    Senator Levin. They were put on notice that you were 
looking at that option, and there were certain benefits to it. 
The advantages of using the Convention Center, you wrote here, 
``include no leaking roof and large open space that may help 
with claustrophobia of some evacuees.'' So you were looking at 
the option and they were aware of it. Is that a fair summary?
    Mayor Nagin. That's probably fair, sir.
    Senator Levin. So when they suggest--it was suggested on 
Thursday that the first they even heard of people being at the 
Convention Center was Thursday, when in fact, it was all over 
television Wednesday night, it is incomprehensible, but it is 
also incomprehensible that they were not aware as early as 
Monday night and Tuesday that you were exploring the option of 
Convention Center use for evacuees. Is that fair?
    Mayor Nagin. That's correct, sir.
    Senator Levin. Now, I would ask, Madam Chairman, that three 
excerpts from television programs on Wednesday night, August 
31, be made part of the record at this time.\1\
---------------------------------------------------------------------------
    \1\ The three excerpts from television programs on Wednesday night, 
August 31, 2005, submitted by Senator Levin appear in the Appendix on 
page 100.
---------------------------------------------------------------------------
    Chairman Collins. Without objection.
    Senator Levin. The first one is CNN, where their observer 
on the scene said there was a National Guard presence, but in 
not all areas. ``I was down at the Convention Center standing 
right across from 3,000 people who had gathered at this 
Convention Center. These people are hungry, they're tired, 
they've got nowhere to go, they've got no answers. They've got 
no communication whatsoever.''
    In addition, the MSNBC report that, ``There are frightening 
stories tonight''--this is Wednesday night at 10--``at the 
Convention Center where everybody has been told, go down there, 
you can get some medical treatment, they'll be able to get you 
out of town. So we have seen people walking for miles, carrying 
their suitcases. Well, we've been told down there at that 
Convention Center it's absolute chaos.'' So that is the 
Wednesday night report.
    And the third report is from Paula Zahn on CNN as well, 
where ``there are literally thousands of people,'' she said, 
``lined up at this Convention Center, wandering aimlessly, I 
mean, mothers with their babies, little kids, walking through 
this putrid water, and there is this dead body that's just 
sitting there.'' And that Paula Zahn TV report was at 8 o'clock 
on Wednesday night as well.
    One final question, and that is that apparently there was a 
National Guard unit at the Convention Center during that time. 
But for what reason I do not follow, it did not get involved in 
assisting people. I do not know if that is accurate or not, but 
is it accurate that there was a National Guard unit right at 
the Convention Center, separated apparently by a wall of some 
kind from where most of the people were. What do you know about 
that?
    Mayor Nagin. It is my understanding that--from talking to 
the police chief and some other law enforcement agents, that 
there were National Guards, not a big contingency, that were 
supporting police officers as well as State police. There was a 
decision that was made on site--I don't know exactly who it 
came from--that the National Guard would not actively engage 
and that they would primarily stay on the periphery of what was 
going on at the Convention Center.
    Senator Levin. Do you know why that decision was made?
    Mayor Nagin. No, sir.
    Senator Levin. Thank you. Thank you, Madam Chairman.
    Chairman Collins. Thank you.
    Mr. Mayor, I want to just follow up briefly on the 
Convention Center issue. There is no doubt in my mind that 
Federal officials should have known that the Convention Center 
was being used as a shelter by looking at television and seeing 
the reports that Senator Levin has just put in the record. But 
in fact, there is also no indication that you informed the 
Federal Government that you were going to invoke the 
alternative that you put down in your request of August 29. 
There are no documents, and indeed, in our interviews with FEMA 
officials, there is considerable evidence that they confused 
the Convention Center and the Superdome and thought that they 
were one and the same.
    We will follow up with FEMA about this issue, but just so 
you know, there is no evidence in the 800,000 pages of 
documents that there was a notification. Nor was there evidence 
of the request for food and water that this plan clearly 
contemplated would be triggered once the Convention Center was 
activated. And it still is troubling to me that people were 
sent to the Convention Center without the city or State 
ensuring that there were some initial supplies there, 
particularly since you contemplated that you might have to use 
the Convention Center. I know you told people to bring 
supplies, but I do not understand why the city did not ensure 
that there were some supplies there until you could get FEMA to 
activate the plan.
    Mayor Nagin. Madam Chairman, all I can tell you is that in 
the heat of the moment things were evolving, and they were 
evolving very quickly. And when we could provide documents, we 
provided them, such as the report that is in this exhibit. But 
once power started to fail, we had difficulties doing simple 
things such as we tried to do flyers for individuals in the 
Convention Center and the Superdome, but had no means of doing 
the copies. But we were talking to FEMA, the State, and the 
Federal Government on a day-to-day basis, hour-to-hour basis, 
trying to get them to understand.
    Chairman Collins. Could you tell us who the person was that 
you notified at FEMA if it was not done in writing? Who was it 
that you talked to to say, ``We are now opening the Convention 
Center and we are going to need help?''
    Mayor Nagin. I think you would have to ask Colonel Ebbert 
that, since he was in charge of coordinating those efforts.
    Chairman Collins. Let me also go back to an exchange that 
you had with Senator Akaka. You referred to the testimony we 
heard earlier this week from one of the police captains who was 
very critical of the city's Office of Emergency Preparedness. I 
just want to make sure that you realize that this was not just 
one police officer. This was an official after-action report 
that was completed by the command staff of the New Orleans 
Police Department. It is not just one captain, and it is a 
devastating indictment of the Office of Emergency Preparedness. 
The summary section of this after-action report includes 
language that says, ``total failure of OEP. Although identified 
as the point of command for the emergency, the OEP was out of 
communication with a large percentage of the department several 
times during the storm.'' One captain on the command staff 
wrote in his report that, ``The OEP needs to be revamped.'' 
Another captain wrote, ``Unified command was never 
established.'' A third captain wrote, ``If their role is to 
have us prepared to handle a disaster such as this, they 
FAILED,'' and failed is in capital letters. ``They lacked a 
plan, did not provide the necessary equipment, provided no 
direction or leadership.''
    This language is directly from the first responders that 
your city relies upon, and it is from three captains, who on 
their own initiative launched the search and rescue operations 
to save the lives of New Orleans residents. I know you are 
grateful for their initiative.
    In light of this indictment that is not just from one 
captain, it is the after-action report of the command staff of 
the department, what actions are you taking to strengthen OEP?
    Mayor Nagin. Well, we're doing our own critical analysis, 
Madam Chairman, as far as OEP, the communications networks. One 
of the things we're asking for is a 25-mile interoperability 
communication system, which we did not have prior to the event. 
So when all the communications networks went down, I can 
understand how some commanders would have felt as though they 
weren't being communicated to adequately so they had to take 
matters in their own hands.
    We hope to resolve that issue going forward by putting the 
system, a redundant system that we have, in place. As a matter 
of fact, we have stood up the first free Wi-Fi system in an 
urban environment in the country's history, and that is the 
basis for us to have redundant communications going forward.
    Chairman Collins. Do you think the criticisms in this 
report are fair?
    Mayor Nagin. I think that our police officers went through 
a lot during this storm, and they were looking for help in a 
crisis situation from a lot of different sources, and I think 
it's something that they believed at the time, but it was only 
a very limited view of what was going on. We had police 
officers in the OEP. They had police radios that didn't work as 
consistently as we would like, so therefore, communication was 
cut off.
    Chairman Collins. Thank you. Senator Lieberman.
    Senator Lieberman. I do not have any further questions. 
Thanks, Mayor. Maybe I will just ask you this. I cannot resist. 
Having gone through everything we have gone through, all we 
have learned, understanding that the city is still devastated 
in a lot of ways, is the city ready for the hurricane season? 
Will it be ready in June?
    Mayor Nagin. Today we are not ready. If the Corps of 
Engineers does what they claim they will do, and it appears as 
though they will, a core of the city will be pretty well 
protected for the next hurricane season.
    Senator Lieberman. In other words, if they get the levees 
reconstructed back to Category 3 resistance, as we have come to 
understand that term, by June, that will give the protection.
    Mayor Nagin. Yes.
    Senator Lieberman. Has it been possible, in the midst of 
everything else going on in the city, to get ready in all of 
the ways--although, obviously, this is a much smaller city in 
population now, but transportation out, shelter, etc.--are you 
able to do that while rebuilding the city?
    Mayor Nagin. Yes. We're working on simultaneous fronts. The 
evacuation plan will be updated and communicated and able to be 
executed at a moment's notice come June, so we feel very 
comfortable with that.
    But I don't want to leave an impression that we're totally 
out of the woods, Senator.
    Senator Lieberman. No. In terms of preparation?
    Mayor Nagin. In terms of preparation, we'll be there and 
we'll evacuate, and we won't have the same situation we had at 
the Superdome or the Convention Center.
    But I must tell you, without coastal restoration, we still 
have major parts of the city that are still vulnerable, parts 
of New Orleans East, and the lower 9th Ward, which brings in 
St. Bernard and Plaquemines, so we still have lots of work to 
do.
    Senator Lieberman. I agree. Those of us who went again a 
couple of weeks ago when we saw you, I think we came away 
feeling that we have to do everything we can to get ready if 
another hurricane, God forbid, hits New Orleans, but the work 
of recovery, including the restoration of the marshes, is the 
work not of a single year, but of years.
    Mayor Nagin. Yes.
    Senator Lieberman. We intend to stick with you until it is 
done.
    Mayor Nagin. Thank you. Well, we need to get some housing. 
If we can get housing going, we can stand up the city. Along 
with the restoration of the levees, I think we can all be proud 
at the end of the day that we're doing something that we need 
to do.
    Senator Lieberman. Thanks, Mayor.
    Chairman Collins. Senator Coleman.
    Senator Coleman. Thank you, Madam Chairman.
    Just on a narrow line of inquiry, we talk a lot about 
spreading democracy around the world. I was mayor on September 
11. It was a primary day, and we had the race. When do you plan 
to have elections? How do you conduct elections when your 
people are all over the country? Is that something folks are 
working on?
    Mayor Nagin. It's something that's being worked on, but I 
will tell you this, Senator, I'm all for having elections, but 
I want to make sure that they're fair elections. And the fact 
that as Mayor of the City of New Orleans, I still do not have 
the FEMA list that will allow me to communicate with my 
citizens who are spread out over 44 different States, to at 
least let them know that they can come back, causes me to pause 
as far as whether we can have fair elections or not.
    The Secretary of State and the Governor are working on 
this, but I have some grave questions about giving all of our 
citizens the opportunity and the right to exercise their vote, 
and it's scheduled for April 22. So it's right upon us, and we 
still have not communicated with those residents around the 
country.
    Senator Coleman. I wish you the best in that effort, Mayor.
    Mayor Nagin. Thank you.
    Senator Coleman. Thank you, Madam Chairman.
    Chairman Collins. Thank you.
    Mr. Mayor, I want to thank you very much for your testimony 
here today, and I also want to publicly thank you for your 
cooperation with our investigation. It is really important that 
we find out exactly what went wrong so that we can improve our 
capabilities at all levels of government to respond to future 
disasters, whether they are natural disasters like Katrina or 
man-made ones like terrorist attacks.
    I want to echo the comments of my colleagues, both of whom 
visited your city with me recently, that I was stunned by how 
much work remains to be done. It is extraordinary to me that we 
have appropriated $85 billion, and yet parts of your city look 
precisely as they did when Senator Lieberman and I visited 2 
weeks after Katrina had struck. This is going to require a 
long-term partnership among all levels of government and the 
private sector to rebuild New Orleans. I want to echo my 
colleagues that I, too, am committed to that. But we also need 
a long-term commitment by all levels of government to make sure 
that we have learned the lessons of Katrina and that regardless 
of what happened in the past, and how the response may have 
failed or the planning was inadequate, we have to learn those 
lessons and go forward to make sure that the response in the 
future is much better.
    If we rebuild New Orleans bigger, better, or at least 
better than ever before, we need to make sure that it is no 
longer as vulnerable as it was. That is why this investigation 
must continue, and then all of us will work to implement the 
recommendations and reforms that result.
    Again, I thank you for being here today.
    Mayor Nagin. I thank you, Madam Chairman. I thank all the 
Committee Members. I thank you for frank questions. The City of 
New Orleans has been an open book since this event. We have 
cooperated fully. When our computer system crashed, we went and 
recovered data that we normally couldn't get access to. We are 
committed to making sure that this never happens again for New 
Orleans, nor for any other city in America. I would encourage 
you to continue to probe. Make sure that all levels of 
government answer the tough questions. Don't let them squirm 
out, I don't care who it is. We need to get to the bottom of 
this, and this must never, ever happen again in this Nation's 
history.
    Chairman Collins. Thank you.
    We are now going to call forward our second panel, which 
consists of individuals with key roles in executing the 
evacuation of the Greater New Orleans area following Katrina.
    The first witness is Brigadier General Mark Graham, the 
Deputy Commanding General of the Fifth U.S. Army. General 
Graham has over 30 years of active duty military service. In 
response to Hurricane Katrina, General Graham was the Deputy 
Commanding Officer of Task Force Katrina.
    Vince Pearce serves as the National Response Program 
Manager at the U.S. Department of Transportation. He is 
responsible for the Department's preparedness activities under 
the National Response Plan and its coordination with FEMA for 
all related planning and training activities.
    Dwight Brashear is the Chief Executive Officer and General 
Manager of the Baton Rouge Capital Area Transit System.
    General Graham, we are going to begin with you. Thank you.

   TESTIMONY OF BRIGADIER GENERAL MARK A. GRAHAM,\1\ DEPUTY 
              COMMANDING GENERAL, FIFTH U.S. ARMY

    General Graham. Madam Chairman, Members of the Committee, I 
am honored to appear before you today to discuss my 
participation in the evacuation efforts in New Orleans in the 
aftermath of Hurricane Katrina.
---------------------------------------------------------------------------
    \1\ The prepared statement of General Graham with attachments 
appears in the Appendix on page 58.
---------------------------------------------------------------------------
    I am Brigadier General Mark A. Graham, Deputy Commanding 
General of Fifth U.S. Army/Army North, stationed at Fort Sam 
Houston, Texas. I was serving in this position on Wednesday, 
August 31, 2005, when we deployed an Operational Command Post 
(OCP) consisting of 24 soldiers and Department of the Army 
civilians from Fort Sam Houston, Texas, to Baton Rouge, 
Louisiana.
    On Tuesday, August 30, Lieutenant General Robert T. Clark, 
the Commanding General of Fifth U.S. Army, spoke with 
Lieutenant General Russel J. Honore, Commander of Joint Task 
Force Katrina (JTF-Katrina), and proposed to send an 
Operational Command Post to Louisiana. Lieutenant General 
Honore agreed to our deployment. The OCP was sent as part of 
JTF-Katrina to augment Colonel Anthony F. Daskevich, the 
Defense Coordinating Officer for Louisiana, and his Defense 
Coordinating Element in Baton Rouge to provide planning support 
to FEMA and to enhance the communications and coordination 
capability for JTF-Katrina.
    I arrived at the State Emergency Operations Center in Baton 
Rouge at approximately 5 p.m., Wednesday, August 31. I 
immediately reported to Lieutenant General Honore. With the 
concurrence of Louisiana Governor Kathleen B. Blanco and Major 
General Bennett C. Landreneau, the Adjutant General of the 
State of Louisiana, Lieutenant General Honore changed our 
mission and directed me to evacuate the City of New Orleans and 
the greater New Orleans area in order to save lives and relieve 
human suffering.
    We immediately began our planning and worked through the 
night with Federal, State, and local agencies to develop an 
evacuation plan with the Superdome being the main effort. Our 
plan considered the use of multiple modes of transportation, 
ground, air, rail, and water. However, execution of our plan 
was based on available resources.
    We coordinated with FEMA, who had already begun efforts to 
obtain commercial and school buses. We used these buses as they 
became available. Commercial buses were used to transport 
displaced persons out of State to shelters identified and 
coordinated by FEMA. School buses were used only to transport 
people to the airport for evacuation by air. We synchronized 
our efforts and began evacuation of the Superdome upon the 
arrival of buses mid-morning on Thursday, September 1. This 
evacuation was coordinated with the National Guard personnel at 
the Superdome. The National Guard soldiers escorted the 
evacuees from the Superdome, across a pedestrian bridge, 
through the Hyatt Regency Hotel lobby where ARNORTH liaison 
personnel then efficiently had them load buses located on the 
connecting city street where they were then transported to 
shelters.
    We initially used the Texas Highway Patrol and later the 
Louisiana State Police to escort buses for security purposes 
and route orientation. We established command and control 
liaison team nodes at the Superdome and mile marker 209, an 
easily identifiable road intersection which included a truck 
stop on Interstate Highway 10, which was approximately 20 miles 
from the Superdome. Mile marker 209 was the best point where we 
could assemble such a large number of buses and quickly 
dispatch them to the Superdome and other areas in the city.
    We also deployed liaison team command and control nodes to 
the New Orleans Airport and to the I-10 Causeway. All of our 
command and control nodes were used to coordinate and 
synchronize our 24-hour evacuation operations. We provided our 
own communications using iridium satellite phones and 
intermittent Blackberry coverage. During the evening of 
Thursday, September 1, the OCP was augmented with an additional 
28 soldiers and Department of the Army civilians from Fifth 
U.S. Army. This allowed us to better maintain 24-hour 
operations. Utilizing this network, by the end of the day on 
September 1, we had evacuated approximately 15,000 displaced 
persons out of the City of New Orleans.
    Air evacuation operations began at the New Orleans Airport 
on Friday, September 2. However, the majority of persons that 
the Department evacuated left by bus. Additionally, we used one 
Amtrak train to move under 100 persons from the Superdome to 
Baton Rouge and a river ferry to move people to Algiers Point 
where they were boarded on buses. Also on September 2, 
Lieutenant General Honore coordinated with the Louisiana 
National Guard to secure the Convention Center and to provide 
basic sustainment items.
    Approximately 1,000 individuals were evacuated from the 
Convention Center on September 2. Overall on September 2, we 
evacuated approximately 32,000 additional displaced persons for 
a total of 47,000 from the Superdome, the I-10 Causeway, 
Algiers Point, and the Convention Center.
    By Saturday, September 3, we completed the evacuation 
efforts at the Superdome. We had shifted the main effort to the 
Convention Center. Within 7 hours, the Convention Center 
evacuation was complete. By the end of the day, Saturday, 
September 3, we had evacuated approximately 18,000 additional 
displaced persons for a total of over 65,000 persons.
    On Sunday, September 4, we closed our command and control 
nodes at the Superdome and Convention Center. With fewer than 
1,500 additional displaced persons evacuated on this day, we 
considered the main evacuation of the City of New Orleans and 
the greater New Orleans area complete. At this point, we had 
successfully coordinated the efforts and provided command and 
control for the evacuation of New Orleans.
    Although Hurricane Katrina was a tragedy, I am extremely 
proud of the professionalism and selfless service of each 
military and civilian member of our Fifth Army/Army North Team. 
Their superb efforts to coordinate with local, State, and 
Federal agencies were instrumental in our ability to evacuate 
over 65,000 displaced persons in a 72-hour period. Their 
dedication and devotion were critical to what I consider an 
enormous undertaking to alleviate the difficult circumstances 
and suffering of fellow Americans. We were simply Americans 
helping Americans.
    Thank you again for allowing me to testify before this 
Committee. I am now prepared to answer any questions.
    Chairman Collins. Thank you, General. Mr. Pearce.

   TESTIMONY OF VINCENT PEARCE,\1\ NATIONAL RESPONSE PROGRAM 
           MANAGER, U.S. DEPARTMENT OF TRANSPORTATION

    Mr. Pearce. Madam Chairman, Members of the Committee, I am 
Vincent Pearce, National Response Program Manager at the U.S. 
Department of Transportation, responsible for DOT's activities 
under the National Response Plan, which consists primarily of 
Emergency Support Function 1 (ESF-1), Transportation.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Pearce appears in the Appendix on 
page 89.
---------------------------------------------------------------------------
    I deployed to the Federal Emergency Management Agency, 
FEMA, National Response Coordination Center (NRCC) on August 
30, 2005, to lead the Department's efforts, having spent the 
prior 3 days in the DOT Crisis Management Center as part of 
DOT's crisis management team. I worked from the NRCC 
continuously through Hurricanes Katrina and Rita.
    Before Katrina struck, the team of DOT and contractor 
personnel was leaning forward in the saddle. On August 27, the 
Evacuation Liaison Team began coordinating frequent calls 
between DOT, FEMA, the National Hurricane Center, and State 
officials to discuss the pre-Katrina evacuation on the 
highways.
    On August 28, 2005, DOT staff at the NRCC called DOT's 
Emergency Transportation Center to advise them to plan for the 
possibility of needing 500 buses to assist in a post-landfall 
evacuation. The Center notified DOT's transportation services 
contractor, Landstar Express America, which began immediately 
exploring possible sources for vehicles and drivers.
    At 12:30 a.m. on August 31, we received verbal notification 
from FEMA that they would be tasking us to provide 455 buses (a 
figure that eventually grew to a peak of 1,105 several days 
later) for the evacuation of the Superdome; authorization to 
proceed arrived at 1:45 a.m. At 5:25 p.m. that same day, FEMA 
tasked the Department of Defense to provide, ``command and 
control for all evacuation in the New Orleans area and lower LA 
affected parishes.'' As each bus that Landstar secured arrived 
in the designated staging areas, control was transferred from 
DOT to DOD.
    By 1 p.m. on August 31, DOT had a professional fleet 
management contractor onsite at the first staging area 
designated by the Louisiana State Patrol and the Louisiana 
National Guard. Roughly 20 buses were already onsite. By 
midnight, some 200 buses had arrived and were ready for 
operation, having already outgrown the first two staging areas 
and moved to a third. Over 200 additional buses were already 
contracted and en route. By September 5, 2005, DOT had 
contracted for over 1,100 vehicles.
    DOT is participating in a review across the Federal 
Government to determine how to do better. While this Committee 
and others undertake the important work of identifying problems 
and fixes, I hope you also have time to recognize what went 
right. The drivers, dispatchers, and other employees of 
Landstar are among the unsung heroes of Katrina. Following 
Katrina, the DOT Inspector General conducted a review of 
internal controls over the Landstar contract and reported that, 
``The circumstances surrounding the disaster were both dire and 
extraordinary, and FAA Southern Region management and our 
contractor provided an unprecedented level of response to the 
crisis as it unfolded.''
    In a chaotic environment, they brought thousands of buses 
and trucks when and where they were asked to. They have earned 
the thanks and appreciation of the Department of 
Transportation, and we hope yours as well.
    Thank you. I stand by to answer questions.
    Chairman Collins. Thank you. Mr. Brashear.

TESTIMONY OF DWIGHT DAVID BRASHEAR,\1\ CHIEF EXECUTIVE OFFICER, 
      CAPITAL AREA TRANSIT SYSTEM, BATON ROUGE, LOUISIANA

    Mr. Brashear. Thank you, Madam Chairman, Senator Lieberman, 
and Members of the Committee. Thank you for allowing me to 
testify before you here today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Brashear appears in the Appendix 
on page 92.
---------------------------------------------------------------------------
    The words of Ralph Waldo Emerson come to mind when he said: 
``The wise man in a storm prays to God, not for safety from 
danger, but for deliverance from fear.''
    Once again, I am honored that you have requested me here 
today to discuss disaster preparedness and emergency response 
to Hurricane Katrina. I hope to show you today that mass 
transit played a valuable role during Hurricane Katrina, and it 
continues to aid in the devastation and aftermath of this 
cataclysm.
    First, I bring greetings to you from Baton Rouge's Mayor-
President Melvin Kip Holden and Louisiana Governor Kathleen 
Blanco. They were both pivotal in my ability and my 
organization's ability to maximize efforts in providing 
essential emergency services. I would also like to take this 
opportunity to recognize the contributions of FEMA, the Federal 
Transit Administration, the U.S. DOT, and the Louisiana 
Department of Transportation and Development, and also I would 
like to thank the American Public Transit Association for their 
presence here today and their support in my testimony.
    I would also like to recognize all the agencies that worked 
so tirelessly for many weeks to assist in the needs of 
displaced citizens and the delivery of goods and services, and 
these include the offices of the Mayor-President, the city-
parish employees, the Governor's staff, the State Department of 
Transportation, the MPO, the State Police, local fire and local 
police, and many public and private agencies and organizations. 
Last, I would like to express the gratitude of all the people 
along the Gulf Coast for the help that this great Nation has 
given, from you, the elected officials, to many people and 
organizations from every State in this Nation.
    I am a witness to the resolve and resourcefulness and 
commitment of people extending a hand and opening their hearts 
to millions of hurting displaced families, many of whom have 
lost everything. I say to you today that we must continue to 
meet the short-term emergency needs, and we must commit 
ourselves to the long-term rebuilding and resettlement needs of 
our fellow sisters and brothers.
    You have asked me here today to discuss resources that were 
put into developing pre-Katrina evacuation plans and into post-
storm evacuation of New Orleans. I will present my comments as 
they relate to pre- and post-Katrina defining periods for the 
Gulf Coast area. Transit in Baton Rouge pre-Katrina had my 
agency's eyes set on a major public involvement process to put 
a referendum before the voters in East Baton Rouge Parish to 
expand our service and to develop a very good mass transit 
system, which included bus rapid transit and light rail.
    We had a fair amount of traffic congestion prior to Katrina 
and associated infrastructure issues. Baton Rouge was a capital 
city with a population of about 400,000 with an estimated urban 
area of about 600,000, and it was a city excited about the 
future and potential growth.
    As you know, Hurricane Katrina hit the Gulf Coast on August 
29, 2005, and I can only describe it as an event of shock and 
awe. A critical crisis situation happened in Baton Rouge almost 
overnight. Within 24 hours, approximately 400,000 of the 1.3 
million population of New Orleans were moved into the Baton 
Rouge area. The road infrastructure was over capacitated. A 20-
minute peak period commute went to almost 2 hours. And my 
transit system, the small transit system of Baton Rouge, was 
overwhelmed. Buses simply had to pass people up along transit 
routes due to passenger loads. Food, water, gas, utilities, and 
medical became critical supplies. A logistics nightmare ensued 
for moving anything. Support and coordination efforts of 
Federal, State, and local entities were pushed and stressed 
beyond endurance limits.
    Capital Area Transit System (CATS) did not facilitate in 
the evacuation of New Orleans. That is to say that my agency 
did not participate in the evacuation of New Orleans, as we 
were engaged in implementing emergency transit services in the 
greater Baton Rouge area. The elderly and disabled and those 
with special needs were moved from homes to shelters. I worked 
with the CATS property and the parish Office of Emergency 
Preparedness. I actually had to drive through the hurricane 
from my home to the parish OEP, swerving past flying debris. I 
understand that when you are part of the first responder team, 
the simple fact is that you will have to take some risk. But 
you plan for these, and you minimize your exposure.
    The Capital Area Transit System is prepared and part of the 
local government's first responder team. Transit system 
professionals know the transportation road network, command 
excellent service deployment ability, and they have good 
communication systems. In Baton Rouge, we participated in the 
OEP disaster incident table top exercises and management 
practices on an ongoing basis. Many transit professionals 
possess the tools to respond to chemical, biological, flood, 
fire, and terrorist disaster incidents. Tools for dealing with 
the disasters need to be developed, upgraded, and practiced 
constantly. Common operating platforms, logistics management 
plans, use of professionals, resource inventory and 
availability, clear chains of command, and practice are what I 
believe to be critical components of meeting the challenge of 
disaster management. Through practice, team members learn to 
trust each other, focus on an incident with changing dynamics, 
and optimize the use of available resources.
    I was called by the Governor's Office on the evening of 
August 31 to assist the State in the post-Katrina evacuation of 
New Orleans. On September 1, 2005, I reported for duty at the 
State OEP facility, and quickly I realized what General George 
Patton must have been thinking when he said: ``In 40 hours I 
shall be in battle, with little information, and on the spur of 
the moment I will have to make the most momentous decisions. 
But I believe that one's spirit enlarges with responsibility 
and that, with God's help, I shall make them and make them 
right.''
    Although I had no direct involvement in developing pre-
Katrina evacuation plans, I assisted in the coordination and 
evacuation from the Superdome, Convention Center, I-10, and 
other areas. School buses, transit buses, and inter-city 
coaches from around the country came to assist in our needs. 
Some may say it should have been done better, and I believe 
that ``woulda,'' ``shoulda,'' and ``coulda'' become the 
operative words. As we have more time to reflect and assess how 
the emergency operation was implemented, these decisions will 
result in new protocols, new processes and programs, and this 
is good because real change requires real change, and that is 
exactly what we are after.
    My agency and the New Orleans Regional Transit Authority, 
FEMA, the FTA and local MPO, State Transportation Department, 
and local governments worked 14-hour days from September 8 
through September 19 to develop an emergency Baton Rouge-New 
Orleans project proposal. FEMA and FTA responded with a $47 
million contract on October 1, 2005, and we believe this is 
probably the largest such contract in the history of this 
country for a mass transit property.
    Today, my agency and the New Orleans Regional Transit 
Authority (NORTA) work side-by-side in our city, providing 
emergency transit services to displaced hurricane victims and 
also providing a transportation option to gridlock and traffic 
congestion.
    NORTA is operating emergency fixed-route local and ADA 
paratransit service in Baton Rouge, and we hope to shortly 
begin park and ride, and we hope this will alleviate some of 
the traffic congestion along the Baton Rouge highways. The 
FEMA/FTA project has allowed NORTA to begin calling back some 
of its 1,350 displaced employees. NORTA has also begun start-up 
service in New Orleans. This is a transit success story because 
of the partners in this persevered and championed the mission. 
It required real change in State and local policies and 
procedures, real change in coordination and internal operations 
of my agency and the New Orleans Regional Transit Authority. It 
has required help from sister agencies across this country for 
equipment. It has required the replacement of fear with endless 
possibilities and boundless opportunities.
    When I think back to August 29, it must have been a day 
much like what caused Longfellow to write: ``Be still sad heart 
and cease repining, for behind the dark clouds the sun is still 
shining. Thy fate is a common fate of all, into each life some 
rain must fall.'' And we have to have dark and dreary days in 
order for us to appreciate the brighter days.
    And I'm here to say that Baton Rouge and New Orleans are 
standing on the sunlit path of progress and rebuilding.
    Once again, Madam Chairman, I thank you for allowing me to 
tell you that mass transit is working. It worked in the 
evacuation, and I hope and pray that God will continue to bless 
this Nation and to bless this government. Thank you.
    Chairman Collins. Thank you.
    Senator Lieberman, I understand that you have a scheduling 
constraint, so why don't you proceed with your questions.
    Senator Lieberman. Madam Chairman, thank you very much for 
your courtesy. I thank the witnesses for their testimony.
    Just very briefly, Mr. Pearce, I want to ask you a couple 
of questions. You are the National Response Manager for the 
Department of Transportation of the Federal Government. Under 
the National Response Plan, Federal DOT, logically enough, has 
the lead for ESF-1 transportation components of response. I was 
struck in your testimony that you reported that the first time 
FEMA asked the U.S. Department of Transportation to obtain 
buses was at 1:45 a.m. on Wednesday, which would have been 
August 31, which is 2 days after landfall. I was impressed, on 
the other hand, if I heard you correctly, that you were in the 
Department, presumably based on the weather forecasting that 
everybody had heard, not to mention earlier warnings--I know 
DOT participated in Hurricane Pam, but you had begun to 
mobilize. And my question is two-fold really. One, why do you 
think it took so long for FEMA to ask you for help, and two, 
did anyone at DOT do anything before receiving that official 
request on Wednesday to provide transportation assistance to 
New Orleans?
    Mr. Pearce. Senator, it would probably not be appropriate 
for me to speculate as to FEMA's internal discussions or 
operations, so I'll defer to your asking them that question.
    Senator Lieberman. How about DOT?
    Mr. Pearce. What we did based on the concern by the 
gentleman I had leading the ESF-1 at the NRCC on August 28, was 
we contacted our contractor----
    Senator Lieberman. That is Saturday, 2 days--no, that is 
Sunday, the day before landfall, right?
    Mr. Pearce. Yes, sir. And they began contacting a variety 
of sources for motor coaches. They began with their primary bus 
subcontractor. They identified some other major carriers, 
including the Nation's largest. They identified four of the 
major motor coach associations as possible sources, and they 
began touching base with these basically to make them aware 
that there may be a need in the Gulf area and to start 
considering how they would be able to provide resources.
    Senator Lieberman. How quickly could they have gotten buses 
into the Gulf, into New Orleans, for instance?
    Mr. Pearce. One of the reports was 12 hours from one of the 
providers. Of course, one of the things that our contractor did 
very intelligently was they also looked geographically, so they 
focused on Gulf region providers who obviously would be able to 
get there sooner.
    Senator Lieberman. Sure. If asked by FEMA, or I suppose 
anybody at the Department of Homeland Security, therefore, in a 
timely way, could the Department of Transportation have 
provided buses prior to the hurricane making landfall?
    Mr. Pearce. Yes, sir, we could have. We had already been 
mobilized and were moving large quantities of disaster relief 
supplies into the staging areas. We had mobilized on September 
27 into the State Emergency Operations Center, into the 
Regional Response Coordination Center, and the NRCC. The buses 
would have been simply another transportation asset that we 
would have acquired, deployed to wherever we were asked to, and 
then stood by for further direction.
    Senator Lieberman. Let me ask you this last question. You 
said--and I believe it is true--under the National Response 
Plan, DOT can engage in prestaging transportation resources, 
including those to be used for evacuation prior to a disaster, 
but only at the request of the Department of Homeland Security, 
FEMA, or pursuant to a Federal support request. We have heard 
from other DOT personnel that they believe they have no 
authority to procure assets without authorization from FEMA. I 
wonder, after Pam, but certainly after Katrina, whether that is 
the kind of issue that should be worked out in advance and not 
when the storm is upon some area of America?
    Mr. Pearce. Senator, I would say that, among many other 
questions, is going to be part of the study we are doing, 
directed by the Senate, of assessing Gulf State evacuation 
plans, working jointly with the Department of Homeland 
Security, and conversely, working with them on the 
congressionally directed study of emergency management and 
operation plans of all of the States and the 75 metropolitan 
areas.
    Senator Lieberman. Thanks, Mr. Pearce.
    Madam Chairman, thanks again for your courtesy.
    Chairman Collins. Thank you. Senator Warner, would you like 
to speak now?

              OPENING STATEMENT OF SENATOR WARNER

    Senator Warner. Yes. Thank you, Madam Chairman.
    I have been around here for a long time. I always enjoy 
quotations, and I think you, Mr. Brashear, picked two very 
fitting quotations to highlight your important testimony.
    Mr. Brashear. Thank you, sir.
    Senator Warner. I happen to remember a good deal about the 
first one because I am a little older than the rest of you and 
been around a little longer, but the second one, I am going to 
make sure I get a copy of that. Would you be kind enough? Is it 
in this written comment that we have before us?
    Mr. Brashear. No, sir. I have it written in my journal 
here.
    Senator Warner. Maybe you can scribble it out for me.
    Mr. Brashear. Yes, sir.
    Senator Warner. Thank you. Thank you again for this 
hearing, as well as the other hearings. It is terribly 
important that we provide for the Senate a record of what has 
taken place and will be taking place regarding Katrina.
    Now, General, first I want to say that testimony before 
this Committee and other committees of the Congress clearly 
reflect extraordinary commendation on all members of the Armed 
Forces of the United States, be they the regular Army or the 
Guard and Reserve, in their respective and somewhat diverse 
missions on behalf of giving support to others to help 
alleviate the suffering and to bring order to this area. I 
accompanied the distinguished Chairman down on one of the early 
visits, and we saw General Honore still in action down there. I 
had a nice private visit with him, and I am greatly impressed 
with him as a professional officer and his dedication, how he 
put so much of his strength and wisdom into his mission.
    And as I understand, you served under him briefly for a 
while down there; is that correct?
    General Graham. Yes, sir, that's correct.
    Senator Warner. My first question is with reference to the 
doctrine of posse comitatus. I have suggested to the Secretary 
of Defense that they study that doctrine, given the lessons 
learned in this tragic situation, to determine if some 
modifications to the law should be made. We can all hope a 
natural disaster such as this will never happen again to the 
United States, but I think we know better and have to prepare 
for it. We never envisioned this one. As you know, in that 
doctrine, the regular forces cannot participate in law 
enforcement activities, whereas the Guard and Reserve can.
    Did you observe any problems as a consequence of the active 
forces not being able to assist the Guard and Reserve or local 
law enforcement in such instances where law and order had to be 
brought about?
    General Graham. No, sir, I did not.
    Senator Warner. Did you see that it was any handicap 
whatsoever that here are two soldiers working together, one a 
Guardsman, one a Regular, both in similar uniforms, and the 
local residents and others cannot tell the difference between 
the two, particularly in an extreme situation, and if law 
enforcement were required, the Regular would simply have to 
take two paces step back and let the Guardsman handle it, but 
you did not see any instances of that nature?
    General Graham. No, sir, I did not.
    Senator Warner. But you were aware of the law and therefore 
you counseled your forces on what they could and could not do?
    General Graham. Yes, sir, I did.
    Senator Warner. Well, we are still trying to study that 
issue. I just want to bring it up.
    I did a little research on the important missions that you 
have down there. You have described it in your testimony, but I 
would like to look to the future and see if I have this correct 
now. With reference to homeland defense, the Department of 
Defense initially split responsibility between the First and 
Fifth Army geographically, with the Fifth Army responsible for 
all west of the Mississippi and the First Army responsible for 
all east. However, the mission changed from one of a geographic 
responsibility to one designed to support specific functions 
for each division nationwide. In other words, each division now 
had a nationwide responsibility with specific components. For 
example, the Fifth Army was to prepare for homeland defense 
support, that is, matters dealing with terrorism and 
traditional homeland security needs, while the First Army would 
align itself with Guard training and, as a result, the more 
FEMA type of disaster response. Is that basically correct?
    General Graham. No, sir, it is not. Fifth U.S. Army 
standing up to become Army North, the Army service component to 
Northern Command.
    Senator Warner. Yes.
    General Graham. In that role, sir, we will have the 
missions of homeland defense and defense support of civil 
authorities. The First Army's mission will be training 
readiness and mobilization for our reserve components.
    Senator Warner. I would like to, Madam Chairman, ask 
unanimous consent that this officer can place in the record the 
change to command responsibilities for the active forces in the 
event that, I presume, NORTHCOM would give the orders to 
activate it, would that be correct?
    General Graham. Yes, sir. And you are talking future, sir.
    Senator Warner. Yes, future, that is correct.
    General Graham. Yes, sir.
    Senator Warner. We are looking at the future as part of our 
study here in this Committee.
    General Graham. Yes, sir.
    Senator Warner. Were you personally participating in the 
construct of this new, should we say, general order for the 
NORTHCOM and the two armies?
    General Graham. No, sir, I was not. I arrived in August 
2005, sir. That process began sometime earlier in 2005.
    Senator Warner. I see. Did they try and modify it or change 
it, given the experiences, the Katrina problems?
    General Graham. Yes, sir. Our initial operating capability 
was effective September 15 during the hurricane event, and as 
we reported back to our headquarters different information, the 
main command post staff back in headquarters was making changes 
to the documentation and using lessons learned, as we speak, 
and the current organization is now different from what the 
original organization had intended to be based on this 
experience, sir.
    Senator Warner. All right. Would you place into the record 
the orders as now standing for the utilization of our active 
forces and such other material as might be pertinent in our 
study of this situation?\1\
---------------------------------------------------------------------------
    \1\ The documents submitted by General Graham appear in the 
Appendix on page 63.
---------------------------------------------------------------------------
    General Graham. Yes, sir.
    Senator Warner. I thank you very much. I thank the 
Chairman.
    Chairman Collins. Thank you.
    General Graham, perhaps the most troubling testimony that 
we have heard in 14 hearings on this issue is the testimony 
earlier this week that nursing home patients were not evacuated 
prior to the landfall, and that nursing homes ran out of fuel 
for generators, ran out of essential supplies, and that 
patients actually needlessly died because they were not 
evacuated. Did either the city or the State seek any assistance 
from the military, to your knowledge, to assist in evacuating 
nursing homes?
    General Graham. Ma'am, not that I'm aware of.
    Chairman Collins. Would that have been a mission that you 
would have been able to undertake had you been asked to do so?
    General Graham. Ma'am, certainly if the mission had come to 
us, we would have done an analysis to see if we could do the 
mission. But, yes, ma'am, if it would have come to us, we 
certainly would have done that work.
    Chairman Collins. Mr. Pearce, was the Department of 
Transportation asked to provide any assets, to your knowledge, 
to assist in the evacuation of nursing homes?
    Mr. Pearce. When we received our first task to provide 
buses, that task also included a requirement to provide 300 
ambulances, but that requirement was canceled a matter of hours 
later, and we were told by FEMA that it had been duplicated 
and, in fact, was transferred or being executed by the General 
Services Administration.
    Chairman Collins. Mr. Brashear, did your agency play any 
role in trying to evacuate the nursing homes?
    Mr. Brashear. No, ma'am, we did not.
    Chairman Collins. General Graham, the Governor of 
Louisiana, in her narrative response to the Committee, has 
implied that the evacuation of the Superdome took National 
Guard forces away from life-saving search and rescue 
operations. As the lead Federal officer in charge of evacuating 
New Orleans, in your judgment, did the evacuation of the 
Superdome shift National Guard resources away from ongoing 
search and rescue efforts?
    General Graham. No, ma'am, not that I'm aware of at all.
    Chairman Collins. From each of your perspectives, is there 
any particular lesson that you learned from Hurricane Katrina 
that is going to change your operations in the future or are 
those reviews still under way? General Graham.
    General Graham. Ma'am, under our new organization, we will 
have defense coordinating officers and their staffs located 
within the 10 FEMA regions, and we think enhancing their 
ability for full-time coordination will allow them to be better 
prepared in the future because we will have firsthand knowledge 
of all the local residents at the time.
    Chairman Collins. I think that is an excellent 
recommendation and improvement.
    Mr. Pearce.
    Mr. Pearce. I think we share with every entity that was 
involved in the response the intense frustration of trying to 
work at a local, regional, and national level absent the 
communications necessary to achieve really effective 
coordination between our personnel at all of those levels. We 
are very much engaged in efforts to figure out how to solve 
this problem, and in fact, how it becomes a component of 
establishing within ESF-1 and more broadly what is referred to 
as the common operational picture, so that in fact we have a 
clear understanding and ability to interact regarding what's 
going on here in Washington, what's going on at the regional 
level, and what's going on down at the incident level itself.
    Chairman Collins. Thank you. Mr. Brashear.
    Mr. Brashear. Yes, ma'am. For our efforts, we continue to 
rediscover and reassess our role as a mass transit provider in 
the Gulf Coast, State of Louisiana, what we need to do better, 
how we can get more involved. And I think one of the things 
that transit professionals--and I spoke in Long Beach just a 
couple days ago--is that we need to insist that these types of 
things be handled by transit professionals. We each have our 
respective disciplines. Mine just happens to be mass transit 
and moving large numbers of people, hopefully, efficiently, and 
I think working with the American Public Transportation 
Association, we are looking at how we can, in a coordinated 
effort, use other like transit properties that may not be 
affected by a disaster like this, bring those resources to 
bear.
    We have cities like Houston and Dallas and other cities 
that could have, their transit systems could have provided 
resources to us very quickly. And so we are working through the 
industry through this country to make sure that we are ready as 
an industry to respond to these types of things in the future.
    Chairman Collins. Thank you.
    I want to thank each of you for your cooperation with the 
Committee's investigation and your testimony here today. There 
may well be some additional questions for the record following 
up on Senator Warner's questions, for example. The hearing 
record will remain open for 15 days. Thank you for being here.
    This hearing is now adjourned.
    [Whereupon, at 12:54 p.m., the Committee was adjourned.]








                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                <all>


</pre></body></html>
